APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Sixth
Circuit
(August 29, 2019) . . . . . . . . . . . . . App. 1
Appendix B Opinion
and
Order Granting
Defendants’ Motion for Summary
Judgment and Judgment in the
United States District Court, Eastern
District of Michigan, Southern Division
(September 24, 2018) . . . . . . . . . App. 26

App. 1

APPENDIX A
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0221p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-2181
[Filed August 29, 2019]
__________________________________________
HEATHER BAKER, Personal Representative )
of the Estate of Kyle Baker, Deceased,
)
Plaintiff-Appellant,
)
)
v.
)
)
CITY OF TRENTON; MARK DRISCOLL; STEVE
)
LYONS; AARON BINIARZ; STEVE ARNOCZKI,
)
Defendants-Appellees.
)
_________________________________________ )
Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.
No. 2:16-cv-12280—Marianne O. Battani,
District Judge.
Argued: June 25, 2019
Decided and Filed: August 29, 2019

App. 2
Before: SUTTON, BUSH, and LARSEN,
Circuit Judges.
COUNSEL
ARGUED: Mark R. Bendure, BENDURE & THOMAS,
PLC, Grosse Pointe Park, Michigan, for Appellant.
Courtney A. Jones, KALLAS & HENK, PC, Bloomfield
Hills, Michigan, for Appellees. ON BRIEF: Mark R.
Bendure, BENDURE & THOMAS, PLC, Grosse Pointe
Park, Michigan, for Appellant. Courtney A. Jones,
KALLAS & HENK, PC, Bloomfield Hills, Michigan, for
Appellees.
_________________
OPINION
_________________
JOHN K. BUSH, Circuit Judge. This case involves
a tragedy of good intentions. Shortly before his high
school graduation, eighteen-year-old Kyle Baker
apparently experimented with LSD. The after-effects of
the drug afflicted him for several days, resulting in his
having to be removed from class because of behavioral
issues. Kyle’s friend, Collin Mathieu, checked in on him
after school to see if everything was all right. It was
not. Collin went to the police and told them that Kyle
needed help and that Kyle was armed and upset with
his mother. The police dispatcher sent four officers to
the house; lost in the communication, however, was
that the mother was not actually home with Kyle.
Without waiting for a warrant, the officers entered
Kyle’s home. He appeared at the foot of the basement
stairs, wielding a lawnmower blade. When the officers
attempted to subdue Kyle with a taser, he came up the
basement stairs swinging. The lawnmower blade

App. 3
struck an officer, who fell back on some stairs or a
landing in front of Kyle. The officer then shot and
killed the young man.
Kyle’s mother, Heather Baker, sued the individual
officers and their employer, the City of Trenton, under
42 U.S.C. § 1983 for alleged violations of the Fourth
Amendment guarantee against unreasonable searches
and seizures, as incorporated against the States by the
Fourteenth Amendment. After discovery, the district
court granted summary judgment to the defendants,
holding that the officers had not committed any such
Fourth Amendment violation (and finding in the
alternative that the officers had qualified immunity)
and that the City could not be liable in the absence of
any constitutional violation. Ms. Baker now appeals
this determination.
This case is heart-rending, and we have deep
sympathy for Kyle’s family and friends. Nonetheless,
given the circumstances and governing case law, we
hold that the officers’s entry into Kyle’s home and use
of force did not violate the Fourth Amendment, and
therefore we AFFIRM the decision of the district court.
I. BACKGROUND1
In May of 2015, Kyle Baker was set to graduate
from Trenton High School in June. His parents,
1

This is a fact-intensive case, with many points of dispute between
the parties. Because this case was decided on a motion for
summary judgment, we construe the facts in the light most
favorable to Ms. Baker, the non-moving party. See Smith
Wholesale Co. v. R.J. Reynolds Tobacco Co., 477 F.3d 854, 861 (6th
Cir. 2007).

App. 4
Heather and Tim Baker, were divorced, and Kyle split
time between their houses, typically spending week
nights with his father and stepmother and weekends
with his mother. Sometime in mid- to late-May, Kyle
participated in “senior skip day,” the traditional day for
seniors to cut class. Apparently, on this occasion, Kyle
decided to try LSD.
About one week after, on May 28, Kyle was acting
oddly at school. The parties agree that his strange
behavior may have been caused by after-effects of the
LSD. Kyle stared out the window and attempted to
shield his eyes from the sun, although the sky was
overcast that day. Also, he could not hold an intelligible
conversation, instead merely repeating whatever was
said to him. As a result, Kyle was sent to the
principal’s office. There, Kyle continued to behave
peculiarly. For example, he said something to the effect
that he was lying down, despite the fact that he was
standing up. Suspicious that Kyle might be under the
influence of drugs, the principal (Dr. Michael Doyle)
called the police. In response, Officer Jake Davis of the
Trenton Police Department visited the school and
observed Kyle.
Davis reported that Kyle was unresponsive to
verbal communication. The officer also voiced suspicion
that Kyle was under the influence of an intoxicant and
asked to speak with Dr. Doyle privately to determine
the proper course of action. While they were in another
room, Kyle was left alone, and he used that opportunity
to leave the school. He did not return.
When Collin Mathieu, a friend of Kyle’s, learned
what had happened, he texted Kyle’s mother to let her

App. 5
know. Additionally, Dr. Doyle called Ms. Baker, as well
as separately called Mr. Baker, to advise each of the
situation. Ms. Baker reacted by calling Kyle’s cell
phone, but she initially was not able to reach him. Mr.
Baker did reach Kyle, and he instructed his son to go
home and remain there. At some point later in the
afternoon, Kyle also answered one of his mother’s
phone calls. He told her that he did not know why Dr.
Doyle had called the police, and did not tell his mother
where he was. Alarmed by this call, Ms. Baker tried
several more times to reach Kyle, but to no avail. She
then texted Collin that she was worried about Kyle.
After school, Collin went looking for his friend. He
first tried Mr. Baker’s house, but Kyle was not there.
Collin next checked a local park, but Kyle was not
there either. Collin then returned to Mr. Baker’s house,
where he finally found his friend alone in the
basement. Collin took out his cell phone and showed
Kyle the text messages from Ms. Baker. Collin then
called Ms. Baker, handing his cell phone to Kyle so that
he could speak with his mother. The two talked briefly,
after which Kyle refused to return the cell phone to
Collin. Instead, according to Collin, Kyle showed him a
pocket knife, though Kyle did not unfold the blade.
After this encounter with Kyle, Collin decided to
contact the police. Because Kyle had Collin’s phone and
would not return it, Collin did not call 911 but instead
went to the police station in person to ask for help.
There, Collin described to Kelsey Pare, a police
dispatcher, what had transpired. Collin told Pare about
Kyle’s call with his mother, but (again according to
Collin’s account) he did not tell the dispatcher that Ms.

App. 6
Baker was present in the home with Kyle or that Kyle
had made threatening remarks toward her. Pare has a
different recollection of what Collin told her, and she
testified that her dispatch accurately reflected what
she had been told. Pare put out the following dispatch:
We have a teenage male in the lobby here, states
that a teenager there named Kyle Baker left
school today. When he went to go check on him
he states that he had a knife in his home. He
was threatening towards his mother. He also
stole his cell phone. He left after he pulled the
knife out. As far as he knows he’s still at the
residence. We also have word he possibly may
have purchased a shotgun last week. Try and
make contact on the house phone but its [sic]
just going busy.
R. 25, PageID 489.
Officers Driscoll, Arnoczki, Lyons, and Biniarz
responded to the dispatch. After the officers reached
Mr. Baker’s house but before they entered, Pare
communicated further details to them:
Caller came into station to report that he went
to check on a friend that had left school today
and when he did, his friend (Kyle Christian
Baker, 18 yo w m) was threatening and yelling
at his mother. He tried to talk to him and pulled
a knife out and took his cell phone. The subj[ect]
then went upstairs; The caller left after the
subj[ect] went upstairs and came to the [station];
Sgt. Cheplick made several attempts to contact

App. 7
the house phone, busy line[.] Attempted to make
contact by cell as well. No answer.2
R. 25-4, PageID 715. Based on this message, the
officers testified that they believed that Kyle, armed
with a knife or a shotgun, or both, was holding his
mother hostage.3
Driscoll knocked on the front door of the house, but
there was no response. Arnoczki went around the back
and found a door unlocked. He let himself in, followed
by Driscoll and Lyons, while Biniarz stayed at the front
door. Once inside, the three officers loudly announced
their presence as the Trenton police and called out
asking if anyone was home. Kyle responded from the
basement by shouting obscenities at the police and
demanding that they leave. Biniarz then went around
to the back of the house, entering to join his colleagues.
Two officers swept the house (save for the basement)
but found neither Ms. Baker nor any weapon. The
officers then positioned themselves at the top of the
basement stairs. They tried to engage in dialogue with
Kyle, who was at the foot of the stairs. The officers
asked Kyle where his mother was. Kyle responded that
2

In this dispatch, Pare referred to Collin as “caller.” There is no
evidence in the record, however, that Collin ever “called” the police
station; rather, the record is clear that Collin made his report in
person.
3

Officer Cheplick was working dispatch alongside Pare. Cheplick
called Mr. Baker to let him know that police were at his house
checking on Kyle and Ms. Baker. Mr. Baker told Cheplick that he
did not believe that Ms. Baker was at the house. This conversation,
however, occurred after the responding officers had already
entered Mr. Baker’s house.

App. 8
he did not know. The officers noticed that Kyle was
holding a lawnmower blade. They asked him to come
upstairs, but he refused. The four officers would not
budge from their positions either. After several
minutes of this standoff, Kyle finally decided to take a
couple of steps up the basement stairs. At that point,
Lyons and Biniarz tasered him with projectile tasers
from the top of the stairs. With Kyle seemingly
stunned, Driscoll then started down the stairs to
subdue him.
As Driscoll descended, however, Kyle stood back up
and resumed heading up the stairs. Biniarz, Arnoczki,
and Lyons backed off the stairs and into the upstairs
kitchen, but Driscoll was unable to fully retreat. He
lost his footing and fell into a seated or semi-seated
position on some stairs or on a landing near the top of
the staircase. From his position, Driscoll saw that Kyle
was still moving up the stairs with the lawnmower
blade in his hand, swinging it erratically. As Driscoll
remained pinned on the stairs or the landing, Kyle
struck him once with the lawnmower blade, producing
a cut wound that required stitches. At that point, the
officer shot his assailant once. According to Driscoll, he
fired upward at Kyle, who stood over him. But,
according to forensic evidence relied upon by Ms. Baker
(which we must credit for purposes of summary
judgment), Driscoll fired downward at Kyle, who at the
time of the shot was seven feet away from the officer.
The bullet passed through Kyle’s abdomen, inflicting
injuries that ultimately proved fatal. After Kyle was
shot, Lyons went down into the basement and
handcuffed him.

App. 9
Kyle was then taken to the hospital, where he died
from the gunshot wound. Only after Driscoll shot Kyle
were the officers able to safely enter the basement and
ascertain that Ms. Baker was not present. Although
Kyle’s shotgun was ultimately located under his bed,
the record does not indicate whether or where Kyle’s
pocket knife was found.
In the aftermath of the shooting, the Michigan State
Police and the Trenton Police Department investigated
the incident, and both determined that the shooting
was done in self-defense. The district court determined
that the officers did not violate the Fourth Amendment
in either their entry of the house or the shooting.
Because it found that the officers had not committed
any constitutional violation, the district court also held
that there was no basis for finding the City liable.
Accordingly, the district court granted the motion for
summary judgment. Baker timely appealed.
II. DISCUSSION
We review the district court’s grant of summary
judgment de novo. Maben v. Thelen, 887 F.3d 252, 258
(6th Cir. 2018). Summary judgment is appropriate
where “there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). A fact is material if it
“might affect the outcome of the suit under the
governing law.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). Because a motion for summary
judgment “necessarily implicates the substantive
evidentiary standard of proof that would apply at the
trial,” we must determine “whether reasonable jurors
could find by a preponderance of the evidence that the

App. 10
[non-moving party] is entitled to a verdict.” Id. at 252.
Once the moving party has met the initial burden of
showing the absence of a genuine dispute of material
fact, the non-moving party must then “come forward
with specific facts showing that there is a genuine issue
for trial.” Matsushita Elec. Indus. Co., Ltd. v. Zenith
Radio Corp., 475 U.S. 574, 587 (1986) (citation omitted)
(emphasis removed). The non-moving party must “do
more than simply show that there is some
metaphysical doubt as to the material facts.” Id. at 586.
“The mere existence of a scintilla of evidence in support
of the plaintiff’s position will be insufficient; there must
be evidence on which the jury could reasonably find for
the plaintiff.” Anderson, 477 U.S. at 252. However, in
considering the evidence in the record, the court must
view the evidence “in a light most favorable to the
party opposing the motion, giving that party the benefit
of all reasonable inferences.” Smith Wholesale Co. v.
R.J. Reynolds Tobacco Co., 477 F.3d 854, 861 (6th Cir.
2007).
Ms. Baker has three Fourth Amendment claims:
1) that the officers violated Kyle’s constitutional rights
when they entered the home without a warrant, 2) that
Driscoll violated Kyle’s constitutional rights when he
shot Kyle, and 3) that the City of Trenton violated
Kyle’s constitutional rights by failing to properly train
and discipline its police officers.4 As explained below,

4

Initially, Ms. Baker also claimed that the officers violated Kyle’s
Fifth Amendment rights by refusing to leave the home when Kyle
refused to speak with them. However, she has abandoned this
claim and we will not consider it.

App. 11
Appellees were properly granted summary judgment as
to each of these claims.
A. Warrantless Entry
“It is a ‘basic principle of Fourth Amendment law’
that searches and seizures inside a home without a
warrant are presumptively unreasonable.” Payton v.
New York, 445 U.S. 573, 585 (1980) (quotation
omitted). “[T]he physical entry of the home is the chief
evil against which the wording of the Fourth
Amendment is directed.” Id. (quoting United States v.
U.S. Dist. Court, 407 U.S. 297, 313 (1972)). Because the
officers in this case entered the home without a
warrant and without permission, their entry was
unlawful unless it falls into an exception to this general
rule. We conclude that the officers’ entry was justified
under the exigent-circumstances exception.5
“Exigent circumstances are situations where real[,]
immediate[,] and serious consequences will certainly
occur if the police officer postpones action to obtain a
warrant.” Thacker v. City of Columbus, 328 F.3d 244,
253 (6th Cir. 2003) (internal quotation marks and
citations omitted). There are four recognized situations
where exigent circumstances allow a warrantless entry:
“(1) hot pursuit of a fleeing felon, (2) imminent
destruction of evidence, (3) the need to prevent a

5

Because we find that exigent circumstances justified the officers’
entry, we do not address Appellees’ second argued basis for the
warrantless entry—the community caretaker exception, which
applies when officers are not engaged in “traditional law
enforcement functions.” See United States v. Rohrig, 98 F.3d 1506,
1521 (6th Cir. 1996).

App. 12
suspect’s escape, and (4) a risk of danger to the police
or others.” United States v. Rohrig, 98 F.3d 1506, 1515
(6th Cir. 1996). Baker argues that the first three
circumstances do not apply here. Kyle was not a fleeing
felon, no one believed him to be in the process of
destroying evidence, and he was not a suspect
attempting escape. Appellees do not dispute these
points. Thus, our analysis focuses on the risk of danger.
“Under the exigent circumstances exception
concerning the threat of violence to officers or others,
police officers ‘may enter a home without a warrant to
render emergency assistance to an injured occupant or
to protect an occupant from imminent injury.’”
Goodwin v. City of Painesville, 781 F.3d 314, 332 (6th
Cir. 2015) (quoting Schreiber v. Moe, 596 F.3d 323,
329–30 (6th Cir. 2010)). We use an objective test to
analyze the circumstances that gave rise to a
warrantless entry: “An action is ‘reasonable’ under the
Fourth Amendment, regardless of the individual
officer’s state of mind, ‘as long as the circumstances,
viewed objectively, justify [the] action.’” Brigham City
v. Stuart, 547 U.S. 398, 404 (2006) (quoting Scott v.
United States, 436 U.S. 128, 138 (1978)). As applied to
the danger-to-police-or-others exception, a lawful
warrantless entry requires “an objectively reasonable
basis for believing . . . that a person within the house is
in need of immediate aid.” Goodwin, 781 F.3d at 332
(quoting Michigan v. Fisher, 558 U.S. 45, 47 (2009)).
More specifically, this standard requires us to
determine whether “a reasonable person [would]
believe that the entry was necessary to prevent
physical harm to the officers or other persons.”

App. 13
Brigham City, 547 U.S. at 402 (citation omitted)
(alteration in original).
The facts here indicate that a reasonable person in
the officers’ position would indeed believe that entry
was necessary to prevent physical harm. The
reasonableness standard of the Fourth Amendment
requires us to examine the officers’ actions in response
to the information they had been given. When those
officers arrived at the house, they had only the
information they received from the dispatcher. Based
on that information, they could have reasonably
believed that Ms. Baker was inside with Kyle, that he
was armed in some fashion, with the knife or the
shotgun, or both, and that he was threatening her. We
have previously considered similar cases.
In Schreiber v. Moe, 596 F.3d 323 (6th Cir. 2010),
we considered the case of a police officer, William Moe,
who entered a home without a warrant in response to
a dispatch message from the police station. In that
case, an anonymous 911 caller6 reported a case of
domestic abuse in the home of James Warren
Schreiber. Id. at 326. The message was relayed to Moe

6

Ms. Baker notes that Schreiber involved a 911 call, but the
instant case does not. See Appellant Br. at 35. Ms. Baker explains
that 911 is “reserved for emergency calls, primarily calls about
immediate danger.” Id. Here, of course, instead of calling 911,
Collin physically went to the police station to make his report. This
distinction is not legally relevant, because the original source of
the dispatcher’s information does not affect our analysis of how a
reasonable officer—who received the information from a dispatch,
not from the original source—would act in response to the
information.

App. 14
(via a message sent to his in-car computer, id. at 326
n.1) and indicated that there was “a risk of physical
harm to a person at the scene.” Id. at 326. There was a
dispute over what Moe observed when he arrived at the
home—Moe testified that he saw both Schreiber and
Schreiber’s teenage daughter Sarah, who was the
alleged victim of domestic abuse, whereas Schreiber
testified that the only person that Moe could have seen
was Schreiber himself. Id. In any event, Moe entered
Schreiber’s home without a warrant and against
Schreiber’s wishes, and a physical altercation between
the two ensued. Schreiber subsequently sued Moe
under § 1983 for excessive force and warrantless entry.
Id. at 328.
Moe argued that exigent circumstances justified his
entry into the home, and we agreed. Even if Schreiber
was correct on the disputed factual point—that is, even
if Moe could see only Schreiber, and not Sarah—“Moe’s
inability to see Sarah would have made it reasonable
for him to investigate so that he could confirm that
Sarah was okay.” Id. at 331. We pointed out that
“[o]fficers do not need ironclad proof of a likely serious,
life-threatening injury to invoke the emergency aid
exception . . . . [I]t sufficed . . . that it was reasonable to
believe that” a victim was about to be or had already
been hurt. Id. (first alteration in original) (internal
citations and quotation marks omitted). Further, we
held that Moe committed no violation by remaining in
the home even after he determined that Sarah was
physically safe. Id. We pointed out that “a warrantless
intrusion into a home must not exceed the exigency
that permits it,” id.; however, once Moe was inside the
home, “Schreiber was on the brink of violence and . . .

App. 15
even if . . . Sarah was at that point unharmed, a
continued police presence was required for a time to
prevent any future harm.” Id.
The circumstances in the instant case are similar.
Because of the language of the initial dispatch, the
officers could reasonably believe that Ms. Baker was in
the home with Kyle and that he was threatening her.
They also had been informed that Kyle possessed a
knife and had recently purchased a shotgun. From
outside the home, the officers could not communicate
with anyone inside. Additionally, while they were at
the home (and before they entered) the officers were
updated with a dispatch stating that attempts to call
the house were getting only busy signals. These facts
did not dispel them of the notion that Ms. Baker was
inside, with Kyle. And because Officer Cheplick’s
conversation with Mr. Baker did not occur until after
the officers had entered the home, it was not part of the
mix of information they had to rely upon in deciding
whether to enter. Based on the information that had
been conveyed to them, those officers, upon arriving at
the house and examining the scene from outside
(coupled with the update from the station), reasonably
could have determined, like the officers in Schreiber,
that they needed more information to determine the
proper course of action. The situation impelled further
investigation, and reasonable officers would have
believed that “serious consequences [would] certainly
occur if [they] postpone[d] action to obtain a warrant.”
Thacker, 328 F.3d at 253.
Given these circumstances—that the officers could
reasonably believe based on the dispatch that Kyle was

App. 16
in the home with his mother, and that he was armed
and threatening her—a reasonable jury could only
conclude that the officers were justified in entering the
home to determine that Ms. Baker was safe. And once
the officers were inside, given Kyle’s erratic behavior
and the fact that he was armed with a lawnmower
blade, no reasonable jury could fault the officers for
remaining in the home.
Ms. Baker attempts to argue to the contrary that
exigent circumstances did not justify the entry because
Kyle posed no risk of danger to the police or others. She
is certainly correct to point out that before the
warrantless entry, Kyle did not in reality pose any risk
to her. However, she is incorrect insofar as she argues
that the officers should have known that Kyle posed no
risk of injury to others. While it is true that Ms. Baker
was not in the house with Kyle, the undisputed facts
demonstrate that the officers reasonably believed that
she was present. We must analyze the actions of those
officers on the scene by reference to a reasonable
understanding of the information that they actually
received. As noted, their actions were reasonable in
light of what they reasonably could have understood
was happening in the house.
For these reasons, we find that the officers did not
violate the Fourth Amendment by their warrantless
entry. Having found no constitutional violation, we
need not examine the second prong of qualified
immunity (whether the right was clearly established at
the time of the violation). We therefore AFFIRM the
decision of the district court as to the warrantless
entry.

App. 17
B. Excessive Force
Ms. Baker’ second claim is that Driscoll violated
Kyle’s rights under the Fourth Amendment by using
excessive force to subdue him. We examine excessiveforce claims under an objective-reasonableness
standard: “the question is whether the officers’ actions
are ‘objectively reasonable’ in light of the facts and
circumstances confronting them, without regard to
their underlying intent or motivation.” Graham v.
Connor, 490 U.S. 386, 396–97 (1989). This test is
dependent on the facts of the individual case, most
importantly “whether the suspect poses an immediate
threat to the safety of officers or others, and whether
he is actively resisting arrest or attempting to evade
arrest by flight.” Id. at 396. A police officer “may not
use deadly force against a citizen unless ‘the officer has
probable cause to believe that the suspect poses a
significant threat of death or serious physical injury to
the officer or others.’” Sova v. City of Mt. Pleasant, 142
F.3d 898, 902–03 (6th Cir. 1998) (quoting Tennessee v.
Garner, 471 U.S. 1, 3 (1985)). Thus, the question here
is whether the facts, taken in the light most favorable
to Ms. Baker, would allow a jury to determine that
Driscoll lacked probable cause to believe that Kyle
posed a significant threat of death or serious physical
injury.
The following facts are not in dispute: at the
moment of the shooting, 1) Kyle was holding a
lawnmower blade, 2) he was advancing or had partially
advanced up the stairs towards Driscoll, 3) Driscoll had
fallen backwards onto the stairs or a landing on the
stairs, and was in a seated or semi-seated position, and

App. 18
4) Kyle actually struck Driscoll with the lawnmower
blade. We must judge these fats “from the perspective
of a reasonable officer on the scene, rather than with
the 20/20 vision of hindsight.” Graham, 490 U.S. at
396. Given these facts, no reasonable jury could find for
Ms. Baker.
Chappell v. City of Cleveland, 585 F.3d 901 (6th Cir.
2009) is instructive. That case arose from a police
shooting of an armed adolescent. Id. There, two
Cleveland police officers executed a search warrant at
the residence of a suspected armed robber. Id. at 904.
In the course of executing the warrant, the officers
conducted a protective sweep of the premises. Id.
During the protective sweep, the officers entered a
bedroom that they believed to be unoccupied. Id. at
905. After they entered the room, however, they
discovered fifteen-year-old Brandon McCloud (the
suspected robber) hiding in the closet. Id. The officers
ordered McCloud to exit the closet and show his hands.
Id. When McCloud came out of the closet, he was
carrying a knife. Id. McCloud moved toward the
officers, ignoring their commands to stop, and they
fired, killing him. Id. Subsequently, McCloud’s
grandmother sued on his behalf under § 1983, alleging
that the officers used excessive force in violation of the
Fourth Amendment. Id. The officers sought summary
judgment on the ground that their actions were
shielded by qualified immunity, but the district court
denied their motion. Id.
On appeal, we determined that the district court
erred and that the defendants were entitled to
summary judgment. As we explained, the key factual

App. 19
question was “whether McCloud posed a serious and
immediate threat of harm.” Id. at 909. Although the
district court had determined that the record of that
case presented a genuine dispute as to that question,
we disagreed:
The knife-wielding suspect was undisputedly
moving toward the officers and had closed to
within five to seven feet in a dark, cluttered,
enclosed space. Both detectives were backed up
against a wall in the small bedroom and there
was no ready means of retreat or escape.
Considering McCloud’s stature (5’ 7” 165 lbs.)
and the size of the knife (described and depicted
in photograph as a standard “steak knife” with
serrated edge), it is apparent that if the
detectives had hesitated one instant, i.e., long
enough to allow McCloud to take even one more
step, they would have been within his arm’s
reach and vulnerable to serious or even fatal
injury. These undisputed circumstances clearly
support probable cause to believe that serious
harm was imminently threatened and that use
of deadly force in self-defense was justified.
Id. at 911.
The similarities between the relevant facts in
Chappell and those here are striking. Both
circumstances involved victims bearing bladed
weapons, who approached officers in a narrow, confined
space, moved within about six feet of the officers, and
were shot and killed by the officers. In the instant case
(unlike the deceased in Chappell), Kyle actually landed
a blow upon the police officer before he was shot. There

App. 20
is some dispute about the actual distance between Kyle
and Driscoll at the moment of the shooting, and
whether Driscoll fired upward or downward. Appellees
assert that Kyle was standing directly over Driscoll at
the time of the shooting, and that the officer fired
upward defensively. By contrast, Ms. Baker asserts
that Kyle was seven feet away from Driscoll, who fired
down the stairs at Kyle. Even crediting Ms. Baker’s
version of the facts, Kyle was within the same five-toseven-foot zone as the victim in Chappell, had already
cut Driscoll once with a lawnmower blade, and could
have immediately pressed home another assault,
perhaps with fatal results. Even on Ms. Baker’s version
of the facts, no reasonable jury could find that Driscoll
used excessive force.
Ms. Baker urges us to distinguish Chappell from the
facts here. She emphasizes that the victim in Chappell
was a suspected armed robber, that the officers in
Chappell had obtained a warrant before entering, and
that the officers in Chappell had no means of retreat,
whereas Driscoll “could have readily retreated, just as
the other officers had.” Appellant Br. at 47. Baker
urges us instead to analogize the instant case to Bletz
v. Gribble, 641 F.3d 743 (6th Cir. 2011).
In Bletz, two police officers were sued for excessive
force after shooting Fred Bletz during the execution of
a warrant. Id. at 747. The officers had a warrant for
failure to appear against Zachary Bletz, who was the
son of, and lived with, Fred Bletz. Id. When Zachary
answered the door and stepped outside to talk with the
officers, they told him they were there to arrest him for
failure to appear. Id. at 747–48. However, because

App. 21
Zachary was wearing slippers, the police allowed him
to re-enter the house to put on more appropriate
footwear before taking him to jail. Id. at 748. When the
officers followed Zachary into the house, they
encountered Fred, who was holding a handgun. Id. The
officers ordered Fred to put the weapon down. He
allegedly was lowering his weapon when the officers
fired, killing him. Id.
When the dcedent’s estate sued under § 1983, the
district court denied summary judgment to the
defendants on qualified immunity grounds. Id. at 749.
On appeal, we affirmed the denial of qualified
immunity. Id. In so doing, we distinguished Bletz from
Chappell:
There are . . . several key differences between
the facts in Chappell and the instant case. In
Chappell, the officers had certain knowledge
that the suspect had engaged in prior armed
robberies using a knife. Here, there was no
imputation of past or potential future violence
on the part of Fred. In Chappell, the officers
were in a small room with no opportunity to
retreat. Here, the officers were in a breezeway,
only feet away from the outside and, arguably,
safety. In Chappell, the subject had advanced to
within five to seven feet and was apparently
lunging forward with a knife. Here, Fred was
fifteen feet away and was allegedly lowering his
weapon.
Most importantly, in Chappell, “[n]one of
[the] facts [were] refuted by physical or
circumstantial evidence and none [were]

App. 22
disputed by contrary testimony. In fact, there
[were] no other witnesses who could testify to
the circumstances facing the detectives in the
bedroom immediately before they fired their
weapons.” In contrast, here, plaintiff’s
allegations rest not only on the eyewitness
testimony of Zachary, but also on the differences
of the testimony and actions of the two
defendants.
Bletz, 631 F.3d at 753 (internal citations omitted). Ms.
Baker asserts that this case is more like Bletz than
Chappell. We disagree.
It is true that Kyle, unlike the deceased who was a
previous armed robber in Chappell, had not engaged in
any known prior violent criminal acts before his
encounter with the police. However, the responding
officers could reasonably believe from the dispatch that
Kyle had threatened his mother and they knew he had
shouted obscenities at them and was erratically
swinging a lethal object. And unlike the officer in Bletz,
Driscoll had just been struck by a potentially lethal
object, and faced the risk of being struck again. Unlike
in Bletz, there was no evidence from which a
reasonable jury could find that the person who
confronted the police was putting his weapon down.
Furthermore, although his fellow officers had
successfully retreated, Driscoll was in no position to
back away from the encounter, as was the case for the
officers in Bletz. Driscoll had fallen down and was in a
vulnerable position. Because Kyle was armed and was
at that moment engaged in violence against Driscoll
(and further, because previous attempts to nonlethally

App. 23
subdue Kyle had failed), Driscoll justifiably acted in
self-defense.
Given that Driscoll had probable cause to believe
that Kyle would cause death or serious injury, his use
of deadly force was not a violation of Kyle’s rights
under the Fourth Amendment. Once again, finding no
constitutional violation on this count, we need not
examine the second prong of qualified immunity. We
therefore AFFIRM the district court’s grant of
summary judgment on the excessive-force claim.
C. Municipal Liability
Municipalities may be held liable under § 1983 for
constitutional violations committed by their employees
if the violations result from municipal practices or
policies. Monell v. Dep’t of Soc. Servs., 436 U.S. 658,
690 (1978). However, where there has been no showing
of individual constitutional violations on the part of the
officers involved, there can be no municipal liability.
See Watkins v. City of Battle Creek, 273 F.3d 682, 687
(6th Cir. 2001) (“If no constitutional violation by the
individual defendants is established, the municipal
defendant[s] cannot be held liable under § 1983.”).
Because Ms. Baker has not shown that the individual
officers committed any constitutional violation, her
claims against the City of Trenton must also fail.
Accordingly, we AFFIRM the district court’s grant of
summary judgment as to the municipal liability claim
as well.

App. 24
III. CONCLUSION
The facts which gave rise to this case are tragic.
However, for the foregoing reasons, we AFFIRM the
decision of the district court.

App. 25
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-2181
[Filed August 29, 2019]
__________________________________________
HEATHER BAKER, Personal Representative )
of the Estate of Kyle Baker, Deceased,
)
Plaintiff - Appellant,
)
)
v.
)
)
CITY OF TRENTON; MARK DRISCOLL; STEVE
)
LYONS; AARON BINIARZ; STEVE ARNOCZKI,
)
Defendants - Appellees.
)
_________________________________________ )
Before: SUTTON, BUSH, and LARSEN,
Circuit Judges.
JUDGMENT
On Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED
that the judgment of the district court is AFFIRMED.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt Clerk

App. 26

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 16-12280
Hon. Marianne O. Battani
[Filed September 24, 2018]
_____________________________________________
HEATHER BAKER, Personal Representative )
of the Estate of KYLE BAKER, Deceased,
)
Plaintiff,
)
)
v.
)
)
CITY OF TRENTON, MARK DRISCOLL,
)
STEVE LYONS, AARON BINIARZ,
)
and STEVE ARNOCZKI,
)
Defendants.
)
____________________________________________ )
OPINION AND ORDER GRANTING
DEFENDANTS’ MOTION FOR
SUMMARY JUDGMENT
I.

INTRODUCTION

Plaintiff Heather Baker, the personal
representative of the estate of her deceased son, Kyle
Baker (“Kyle”), commenced this action in this Court on
June 21, 2016, alleging that four police officers
employed by the Defendant City of Trenton —

App. 27
Defendants Mark Driscoll, Steve Lyons, Aaron Biniarz,
and Steve Arnoczki — violated Kyle’s rights under the
U.S. Constitution by entering Kyle’s stepmother’s home
without a warrant and shooting Kyle in the abdomen,
inflicting a fatal wound from which Kyle died the next
day. Plaintiff also seeks to hold the Defendant City
liable for the alleged violations of Kyle’s constitutional
rights, by virtue of municipal policies and customs that
allegedly brought about these violations. This Court’s
subject matter jurisdiction rests upon Plaintiff’s
assertion of federal claims under 42 U.S.C. § 1983.
Presently before the Court is Defendants’ motion for
summary judgment. In support of this motion,
Defendants first contend that the Defendant police
officers were lawfully entitled to enter Kyle’s
stepmother’s home without a warrant because they did
so to check on Kyle’s well-being, and not for the
purpose of investigating suspected criminal activity.
Defendants further maintain that the officers did not
use excessive force in shooting Kyle, but instead acted
in self-defense after Kyle approached them wielding a
lawnmower blade. Finally, Defendants argue that the
Defendant City cannot be held liable under § 1983,
where Plaintiff has failed to establish a violation of
Kyle’s constitutional rights that might trigger such
liability, and where Plaintiff has failed to produce
evidence of a municipal custom or policy that might
have brought about any such constitutional violation.
Defendants’ motion has been fully briefed by the
parties, and on May 29, 2018, the Court heard
argument on this motion. For the reasons set forth

App. 28
below, the Court GRANTS Defendants’ motion for
summary judgment.
II.

FACTUAL BACKGROUND

The claims in this case arise from an incident that
occurred on May 28, 2015, shortly after Plaintiff
Heather Baker’s son, Kyle Baker (“Kyle”), had turned
18 years old. At the time, Kyle was a senior at Trenton
High School who was scheduled to graduate within the
next few days. Kyle’s parents, Plaintiff Heather Baker
and Tim Baker, were divorced, and Kyle typically spent
weekdays with his father and stepmother, whose home
was closer to Kyle’s school. On weekends, Kyle usually
stayed with his mother.
For about a week leading up to May 28, Kyle’s
family and friends noticed that he began to act
differently. Kyle’s friend, Collin Mathieu, testified that
Kyle was “a little bit off,” had “started acting weird,”
and was withdrawn and wanted to be left alone.
(Dkt. 25, Plaintiff’s Response, Ex. 1, Mathieu Dep. at 9,
29, 32-33.) Similarly, Kyle’s father, Tim Baker,
reported that Kyle “seemed to be more paranoid” and
“nervous” during this period, and that he “didn’t go
anywhere” but instead “stayed at home every day after
school.” (Plaintiff’s Response, Ex. 4, T. Baker Dep. at
21-23.) According to Mr. Baker, Kyle told him that he
had taken “acid or LSD or something like that” on
“senior skip day” a few days earlier, and Mr. Baker
speculated that this drug use might have triggered
Kyle’s unusual behavior. (Id. at 23.)
In the middle of the school day on May 28, 2015,
Officer Jake Davis of the Trenton Police Department

App. 29
was summoned to Trenton High School after one of
Kyle’s teachers reported that he was acting strangely
in class. According to a Michigan State Police (“MSP”)
investigative report, Kyle was escorted by a school
administrator to the principal’s office, where the
principal observed that Kyle “repeated everything that
was said to him” and claimed that he was lying down
even though he was leaning against a wall at the time.
(Dkt. 21, Defendants’ Motion for Summary Judgment,
Ex. B, MSP Investigative Report at 5.) Similarly,
Officer Davis stated in an incident report that when he
approached Kyle and introduced himself, he “stared
blankly at [the officer] without speaking,” acted
“obstinate” in response to the officer’s requests and
queries, and behaved generally as though he was
“possibly under the influence of an intoxicant.”
(Defendants’ Motion, Ex. C, Davis Incident Report at
2.) As Officer Davis and the school principal stepped
into another room to discuss options for addressing
Kyle’s behavior, they were advised by a school staff
member that Kyle had left the premises. (Id.)
The school principal then contacted Kyle’s parents
and arranged for them to meet with school officials the
following morning. During his conversation with Kyle’s
mother, Plaintiff Heather Baker, the principal stated
that the police had been called to the school because
Kyle had been “acting strange in the classroom” and
“looked like he could be on something,” but he assured
Ms. Baker that Kyle “didn’t do any property damage
[and] . . . wasn’t violent.” (Plaintiff’s Response, Ex. 3,
H. Baker Dep. at 25-26.) Likewise, Kyle’s father, Tim
Baker, was told that Kyle was “acting strange in class,”
that the police had done a “wellness check” on Kyle but

App. 30
had not placed him under arrest, and that Kyle had left
the school while the principal and police officer were
discussing what to do. (T. Baker Dep. at 31.)
Following this conversation with the principal, Mr.
Baker called Kyle and “asked him what was going on.”
(Id. at 33.) Kyle responded that “everything [wa]s fine”
and advised his father he was going home, and Mr.
Baker instructed him to remain there. (Id.) Ms. Baker
also called her son, who told her that he did not know
why the police had been called, would not tell her
where he was, and was otherwise “being very vague”
and “whispering” in response to his mother’s questions.
(H. Baker Dep. at 29-30.) Kyle then told his mother
than he “ha[d] to go,” and Ms. Baker’s further attempts
to reach her son were unsuccessful. (Id. at 31-32.)
Concerned about this interaction with her son, Ms.
Baker sent a text to Kyle’s friend, Collin Mathieu
(“Collin”), to see if he could provide any more
information about Kyle’s condition. (Id. at 33.) After an
exchange of additional text messages, (see id.), Collin
went looking for his friend at the home of Kyle’s father,
(see Mathieu Dep. at 10, 72). Collin knocked on the
door and also opened the door and yelled inside, but he
received no answer. (Id. at 10.) Collin next looked for
Kyle at a nearby park, and then returned to Mr.
Baker’s home, this time entering the residence through
a sunroom in the back and calling out Kyle’s name. (Id.
at 10-11, 48.)
After searching the main floor for his friend, Collin
descended the basement stairs and found Kyle holding
a frying pan. (Id. at 11, 18.) Collin told Kyle that he
had been in contact with Kyle’s mother and that she

App. 31
was worried about him, but Kyle refused to believe
him. (Id. at 14, 19, 49.) In an effort to prove that he was
telling the truth, Collin retrieved his cell phone from
his car, returned to the basement, called Kyle’s mother
on his phone, and then handed the phone to his friend.
(Id. at 14, 49.) According to Collin, Kyle listened to his
mother but did not speak, eventually ending the call
and keeping Collin’s phone. (Id. at 14-16, 49-50.) Collin
asked for his phone several times, explaining that he
was getting ready to leave, but Kyle refused to return
it. (Id. at 17, 50.) Instead, as Collin approached his
friend in an attempt to retrieve his phone, Kyle pulled
out a knife and told Collin to “back up.” (Id. at 17, 50.)
In light of this troubling interaction with his friend,
Collin went to the Trenton police station to seek
assistance in checking on Kyle’s welfare. (Id. at 44-45,
51.) He spoke to a dispatcher, Kelsey Pare, advising
her (i) that he had gone to Kyle’s house to check on
him, (ii) that Kyle was upset and had some sort of
dispute with his mother, (iii) that Kyle had taken his
phone and refused to return it, (iv) that Kyle had
pulled out a knife when Collin approached him and
attempted to retrieve his phone, and (v) that Kyle had
recently purchased a gun. (Id. at 21, 45; see also
Defendants’ Motion, Ex. F, Pare Dep. at 19-20.)1
According to Ms. Pare, she repeated back what Collin
told her and he confirmed the accuracy of this account.
(See Pare Dep. at 20.) Ms. Pare then relayed this
information to a sergeant, who told her to send police

1

Mr. Baker confirmed at his deposition that Kyle had, in fact,
purchased a shotgun earlier in May. (See T. Baker Dep. at 47-48.)

App. 32
officers to Kyle’s home to check on his well-being. (Id.
at 18.)
Pursuant to this instruction, Ms. Pare issued a
dispatch directing officers to Mr. Baker’s residence, and
stating as follows:
We have a teenage male in the lobby here,
states that [a] teenager there named Kyle Baker
left school today. When he went to go check on
him he states that he had a knife in his home.
He was threatening toward his mother. He also
stole his cell phone. He left after he pulled the
knife out. As far as he knows he’s still at the
residence. We also have word he possibly may
have purchased a shotgun last week. Try and
make contact on the house phone but it’s just
going busy.
(Defendants’ Motion, Ex. G, Dispatch Tr. at 2-3.) In
response to this dispatch, the four individual
Defendants — Trenton police officers Mark Driscoll,
Steve Lyons, Aaron Biniarz, and Steven Arnoczki —
drove in separate vehicles to Mr. Baker’s home. As they
did so, Ms. Pare advised them over the police radio that
a sergeant at the station had attempted to call a phone
at the house but the line was busy, and that a call to a
cell phone had not been answered. (See Defendants’
Motion, Ex. L, Dispatch Narrative.)
Upon their arrival at Mr. Baker’s residence, the
officers knocked several times on the front door but no
one responded. (See Defendants’ Motion, Ex. H, Driscoll
Dep. at 28, 52; Ex. I, Lyons Dep. at 24.) In the
meantime, Officer Arnoczki proceeded to the rear of the

App. 33
house and, upon discovering that the door to the
sunroom was unlocked, he called for the other officers
to join him. (See Defendants’ Motion, Ex. M, Arnoczki
Incident Report at 2; Ex. K, Arnoczki Dep. at 15; Lyons
Dep. at 24; Driscoll Dep. at 52.) While Officer Biniarz
remained at the front door of the Baker home, Officers
Arnoczki, Driscoll, and Lyons entered the residence
through the rear sunroom, with Officer Arnoczki loudly
announcing their presence as Trenton police officers
and asking if anyone was in the home. (See Defendants’
Motion, Ex. J, Biniarz Dep. at 13; Lyons Dep. at 25;
Arnoczki Incident Report at 2.) Kyle responded from
the basement, yelling obscenities at the officers and
demanding that they leave. (See Defendants’ Motion,
Ex. M, Lyons Incident Report at 1; Lyons Dep. at 25,
32; Arnoczki Dep. at 24-25.)
When Officer Biniarz learned that his fellow officers
had entered the residence and made contact with
someone inside, he came around to the back door and
joined the other officers. (See Lyons Dep. at 25-26;
Lyons Incident Report at 1.) While Officers Biniarz and
Lyons checked the main floor of the residence for other
occupants, Officers Driscoll and Arnoczki took up
positions at the top of the basement stairs and advised
Kyle that he was not in trouble, but that they were not
going to leave until he agreed to speak with them. (See
Lyons Dep. at 29-30; Biniarz Dep. at 34; Arnoczki Dep.
at 28; Arnoczki Incident Report at 2.) In addition, the
officers asked Kyle where his mother was, and he
responded that he did not know and again insisted that
they “get the f*** out of here.” (Lyons Dep. at 32;
Driscoll Dep. at 28, 31.) As the officers continued to call
down into the basement and were told in response to

App. 34
leave the premises, Kyle eventually appeared at the
bottom of the basement stairs holding a lawnmower
blade in his right hand. (See Lyons Dep. at 40; Biniarz
Dep. at 35; Arnoczki Dep. at 29; Arnoczki Incident
Report at 2.)
Upon seeing Kyle at the bottom of the stairs, Officer
Lyons took out his taser and repeatedly instructed Kyle
to drop the lawnmower blade, while Officer Arnoczki
drew his pistol from its holster and held it at his side.
(See Lyons Dep. at 41-42; Arnoczki Dep. at 29-30;
Arnoczki Incident Report at 2; Lyons Incident Report
at 1.) Kyle did not heed Officer Lyons’ commands, but
instead said “shoot me” and started up the stairs
toward the officers with the lawnmower blade still in
his hand. (See Driscoll Dep. at 88; Lyons Dep. at 41-42;
Arnoczki Incident Report at 2; Lyons Incident Report
at 1.) Despite Officer Lyons’ continued pleas for Kyle to
drop the blade and assurances that the officers just
wanted to talk to him and ensure that he was okay,
Kyle continued moving up the stairs. (See Lyons Dep.
at 42, 45; Lyons Incident Report at 1.) Officer Lyons
then turned on his taser, aimed its targeting dot at
Kyle’s chest, and warned Kyle that “I’m going to have
to tase you if you continue up the stairs.” (Lyons Dep.
at 45, 47; Lyons Incident Report at 1.) When Kyle
continued up the stairs with the lawnmower blade in
his hand, Officer Lyons gave a warning of “taser, taser,
taser” and deployed his taser, making contact with
Kyle’s chest. (Lyons Dep. at 47; Arnoczki Incident
Report at 2; Lyons Incident Report at 1.) Kyle froze for
a moment and briefly stumbled back down the stairs,
but then started back up the stairs toward the officers

App. 35
a few seconds later. (Lyons Dep. at 47-48; Lyons
Incident Report at 1.)
As Kyle continued up the stairs, he raised the
lawnmower blade above his head. (See Arnoczki Dep. at
33; Arnoczki Incident Report at 3; Lyons Incident
Report at 1.) Officer Lyons then used his taser a second
time, and Officer Biniarz also deployed his taser on
Kyle. (See Lyons Dep. at 48 ; Biniarz Dep. at 39; Lyons
Incident Report at 1.) Although Kyle still held onto the
lawnmower blade, Officer Driscoll perceived that the
tasers had been effective, and he proceeded down the
stairs in order to place Kyle in handcuffs, for his safety
and the safety of the other officers. (See Driscoll Dep. at
93-95; Biniarz Dep. at 40.)
As Officer Driscoll moved down the stairs, Kyle
stood back up and “started swinging the [lawnmower]
blade erratically” back and forth. (Driscoll Dep. at 9596.) Officer Driscoll then retreated backward up the
stairs, losing his footing and falling on his backside as
he worked his way past the landing and toward the
kitchen floor at the top of the stairs. (Driscoll Dep. at
98-100.) At some point during Officer Driscoll’s retreat
up the stairs, Kyle sliced the officer’s left hand with the
lawnmower blade, and he continued advancing up the
stairs toward Officer Driscoll and his fellow officers,
holding and swinging the blade at or above shoulder
height. (See id. at 97-100.) As Officer Driscoll slid on
his backside up the stairs and reached the kitchen
floor, he “drew [his] weapon at some point,” and when
Kyle reached “probably [within] striking distance” and
“turned towards” the officer, he fired a single round

App. 36
from his weapon, hitting Kyle in the abdomen. (Id. at
100-01.)
After Kyle was shot and fell, Officer Lyons
handcuffed him and applied pressure to his wound with
a towel. (See Lyons Dep. at 54-56.) As Officer Lyons
tended to his wound, Kyle asked “[w]hy are you helping
me,” and told the officer to “[l]eave me alone.” (Id. at
56.) Paramedics from the Trenton Fire Department
arrived a few minutes later, and their report states
that Kyle was “kicking, yelling, and being combative.”
(Defendants’ Motion, Ex. Q, Fire Department Report at
4.) Kyle was transported to Oakwood HospitalSouthshore, where he was pronounced dead the next
morning. (See Defendants’ Motion, Ex. N, Autopsy
Report at 2.) The medical examiner determined that
Kyle died of “a gunshot wound to the abdomen,” and
also reported finding a laceration on Kyle’s right palm
between his thumb and index finger. (Id. at 1.)2
The Michigan State Police investigated the
shooting. (See Defendants’ Motion, Ex. B, MSP
Investigative Report.) Upon reviewing the record of
this investigation, the Wayne County Prosecutor
determined that Officer Driscoll had acted in “selfdefense and/or the defense of others,” and that no
criminal charges were warranted. (Defendants’ Motion,

2

In Defendants’ view, this cut in Kyle’s hand is consistent with the
Defendant officers’ reports and testimony that the young man was
wielding a lawnmower blade during his encounter with the
officers. Defendants also point to evidence that Officer Driscoll was
taken to the hospital for treatment of the wound to his hand. (See
Driscoll Dep. at 99-100; Arnoczki Incident Report at 3; Defendants’
Motion, Ex. X, Driscoll Incident Report at 1.)

App. 37
Ex. R, Wayne County Prosecutor’s Office 8/11/2015
Letter.) This suit followed on June 21, 2016, with
Plaintiff Heather Baker, as personal representative of
the estate of her son Kyle, asserting claims under 42
U.S.C. § 1983 of (i) unlawful warrantless entry, in
violation of Kyle’s rights under the Fourth and
Fourteenth Amendments to the U.S. Constitution,
against the four individual Defendant police officers;
(ii) unreasonable use of force, in violation of the Fourth
and Fourteenth Amendments, against Defendant
Driscoll; and (iii) municipal liability against the
Defendant City of Trenton.3
III.

STANDARD OF REVIEW

Through the present motion, Defendants seek an
award of summary judgment in their favor on each of
the claims asserted in Plaintiff’s complaint. Under the
pertinent Federal Rule governing this motion,
summary judgment is proper “if the movant shows that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). As the Supreme Court has
explained, “the plain language of Rule 56[] mandates
the entry of summary judgment, after adequate time
for discovery and upon motion, against a party who
fails to make a showing sufficient to establish the

3

Plaintiff also asserted a claim against the individual Defendant
officers under the Fifth and Fourteenth Amendments, alleging
that the officers violated Kyle’s right to decline to speak to law
enforcement agents by insisting that he speak with them before
they would agree to leave his home. In response to Defendants’
present motion, however, Plaintiff states that she is no longer
pursuing this claim.

App. 38
existence of an element essential to that party’s case,
and on which that party will bear the burden of proof
at trial.” Celotex Corp. v. Catrett, 477 U.S. 317, 322, 106
S. Ct. 2548, 2552 (1986).
In deciding a motion brought under Rule 56, the
Court must view the evidence “in a light most favorable
to the party opposing the motion, giving that party the
benefit of all reasonable inferences.” Smith Wholesale
Co. v. R.J. Reynolds Tobacco Co., 477 F.3d 854, 861
(6th Cir. 2007). Yet, the nonmoving party may not rely
on bare allegations or denials, but instead must
support a claim of disputed facts by “citing to
particular parts of materials in the record, including
depositions, documents, electronically stored
information, affidavits or declarations, stipulations
. . . , admissions, interrogatory answers, or other
materials.” Fed. R. Civ. P. 56(c)(1)(A). Moreover, any
supporting or opposing affidavits “must be made on
personal knowledge, set out facts that would be
admissible in evidence, and show that the affiant or
declarant is competent to testify on the matters
stated.” Fed. R. Civ. P. 56(c)(4). Finally, “[a] mere
scintilla of evidence is insufficient” to withstand a
summary judgment motion; rather, “there must be
evidence on which the jury could reasonably find for
the non-moving party.” Smith Wholesale, 477 F.3d at
861 (internal quotation marks and citation omitted).

App. 39
IV.

ANALYSIS
A. The Facts Known to the Defendant
Police Officers Justified Their
Warrantless Entry into the Home of Kyle
Baker’s Father.

As the first issue raised in the present motion, the
individual Defendant police officers seek a ruling as a
matter of law that their warrantless entry into the
home of Kyle Baker’s father, Tim Baker, was lawful
under the circumstances. Alternatively, they contend
that the doctrine of qualified immunity shields them
from liability for any Fourth Amendment violation they
might have committed in entering Mr. Baker’s home
without a warrant. As stated by another court in this
district in a case that, like this one, involved
allegations of an unlawful warrantless entry into a
private residence:
It is a fundamental tenet of Fourth
Amendment jurisprudence that “searches and
seizures inside a home without a warrant are
presumptively unreasonable.” United States v.
Rohrig, 98 F.3d 1506, 1513 (6th Cir. 1996)
(quoting Payton v. New York, 445 U.S. 573, 586,
100 S. Ct. 1371, 1380 (1980)). “The physical
entry of the home is the chief evil against which
the wording of the Fourth Amendment is
directed,” and “the warrant procedure minimizes
the danger of needless intrusions of that sort.”
Payton, 445 U.S. at 585-86, 100 S. Ct. at 1379-80
(internal quotations, citation, and footnote
omitted). Absent a warrant, only “exigent
circumstances” may justify governmental entry

App. 40
into a private home. See Payton, 445 U.S. at 590,
100 S. Ct. at 1382; Rohrig, 98 F.3d at 1515.
Strutz v. Hall, 308 F. Supp.2d 767, 776 (E.D. Mich.
2004), appeal dismissed, 124 F. App’x 939 (6th Cir.
Feb. 25, 2005). Here, as in Strutz, the Defendant police
officers did not secure a warrant before entering Mr.
Baker’s home. Consequently, this entry may be
justified, if at all, only through an appeal to exigent
circumstances.
The Sixth Circuit has explained that “[e]xigent
circumstances are situations where real[,] immediate
and serious consequences will certainly occur if the
police officer postpones action to obtain a warrant.”
Thacker v. City of Columbus, 328 F.3d 244, 253 (6th
Cir. 2003) (internal quotation marks and citations
omitted). In determining whether a warrantless entry
is justified by exigent circumstances, the subjective
motivation or state of mind of the entering officer is
immaterial, “as long as the circumstances, viewed
objectively, justify [the] action.” Brigham City v. Stuart,
547 U.S. 398, 404, 126 S. Ct. 1943, 1948 (2006)
(internal quotation marks and citation omitted)
(emphasis and alteration in original); see also Stricker
v. Township of Cambridge, 710 F.3d 350, 358 (6th Cir.
2013). Moreover, in making this determination, this
Court must “consider the totality of the circumstances
and the inherent necessities of the situation at the
time.” Rohrig, 98 F.3d at 1511 (internal quotation
marks and citations omitted).
In an effort to establish that the entry at issue here
was justified by exigent circumstances, the Defendant
officers appeal to the recognized authority of law

App. 41
enforcement officers to “enter a home without a
warrant to render emergency assistance to an injured
occupant or to protect an occupant from imminent
injury.” Stuart, 547 U.S. at 403, 126 S. Ct. at 1947.
This “risk of danger” exigency — sometimes referred to,
as Defendants do here, as the “community caretaker”
exception to the Fourth Amendment warrant
requirement, see Rohrig, 98 F.3d at 1521-22; United
States v. Lewis, 869 F.3d 460, 462 (6th Cir. 2017) —
applies most frequently “in cases where the
Government is acting in something other than a
traditional law enforcement capacity.” Rohrig, 98 F.3d
at 1516. Under this exception, an officer may enter a
home without a warrant where the circumstances
known to the officer make it “objectively reasonable to
believe a medical emergency exists” on the premises,
Stricker, 710 F.3d at 358, or where the officer
“reasonably believe[s] that a person within [the home]
is in need of immediate aid,” Thacker, 328 F.3d at 253
(internal quotation marks and citation omitted).
“Officers do not need ironclad proof of a likely serious,
life-threatening injury to invoke” this exception.
Michigan v. Fisher, 558 U.S. 45, 49, 130 S. Ct. 546, 549
(2009) (internal quotation marks omitted). Yet, “their
decision to enter [the premises] must be based on more
than a hunch or the mere possibility that someone
inside needs immediate aid.” Gradisher v. City of
Akron, 794 F.3d 574, 584 (6th Cir. 2015) (internal
quotation marks and citation omitted).
Turning to the evidence presented here, the record
discloses that the Defendant police officers derived
their knowledge of the situation at Mr. Baker’s home
solely from a radio transmission by dispatcher Kelsey

App. 42
Pare after she spoke with Kyle Baker’s friend, Collin
Mathieu, at the Trenton police station. Specifically, Ms.
Pare stated in this dispatch:
We have a teenage male in the lobby here,
states that [a] teenager there named Kyle Baker
left school today. When he went to go check on
him he states that he had a knife in his home.
He was threatening toward his mother. He also
stole his cell phone. He left after he pulled the
knife out. As far as he knows he’s still at the
residence. We also have word he possibly may
have purchased a shotgun last week. Try and
make contact on the house phone but it’s just
going busy.
(Defendants’ Motion, Ex. G, Dispatch Tr. at 2-3.)
Through this dispatch, the Defendant officers were
advised (i) that Kyle had left school earlier that day,
(ii) that his friend had found him at home with a knife,
(iii) that Kyle had engaged in unspecified threatening
behavior toward his mother, (iv) that he had stolen his
friend’s cell phone, (v) that his friend had left the
premises after Kyle had pulled out the knife in his
possession, (vi) that Kyle possibly had purchased a
shotgun a week earlier, and (vii) that efforts to reach a
resident of the household were unsuccessful due to a
busy signal.
As confirmed by the pertinent case law, these facts
known to the Defendant police officers gave rise to an
objectively reasonable belief that someone in Mr.
Baker’s home was in need of immediate aid or faced
imminent injury. Although the decisions cited by the
parties are factually distinguishable in certain

App. 43
respects, some relevant principles nonetheless emerge
from the Sixth Circuit case law addressing the
community caretaker exception to the warrant
requirement. In Johnson v. City of Memphis, 617 F.3d
864, 866 (6th Cir. 2010), for example, two police officers
were dispatched to a home in response to a “911 hang
call” from the residence.4 When the officers arrived at
the home, they “found the front door wide open” and
announced their presence but received no response.
Johnson, 617 F.3d at 866. The officers then entered the
premises with their weapons drawn, and “agreed they
should sweep the building to make sure that no one
was hurt or in need of assistance.” 617 F.3d at 866. As
they did so, they encountered the plaintiff’s decedent,
Xavier Johnson, who failed to respond to the officers’
inquiries and instead “jumped on” one of the officers.
617 F.3d at 866. After a struggle in which Johnson
grabbed the gun hand of one of the officers and
continued to attack both officers even when they fired
their weapons at him, Johnson eventually succumbed
to the gunfire and fell dead at the officers’ feet. 617
F.3d at 866-67. Only later did the officers learn (i) that
Johnson “was not ordinarily dangerous, but was bipolar
and off his medication,” and (ii) that after the initial
911 hang call, Johnson’s wife called 911 “a few minutes
later and informed the dispatcher of the medical
situation.” 617 F.3d at 867.

4

The court explained that “[a] 911 hang call occurs when a caller
dials 9-1-1, hangs up before speaking with the operator, and the
operator is unable to reach the caller when attempting to return
the call.” Johnson, 617 F.3d at 866 n.1.

App. 44
The district court in Johnson found that the officers’
warrantless entry was justified under the community
caretaker exception, and the Sixth Circuit affirmed,
holding that “the combination of a 911 hang call, an
unanswered return call, and an open door with no
response from within the residence is sufficient to
satisfy the exigency requirement.” 617 F.3d at 869. In
so ruling, the court reasoned that “[t]he whole point of
the 911 system is to provide people in need of
emergency assistance an expeditious way to request it.”
617 F.3d at 870. Thus, “[b]ecause a 911 call is by its
nature an appeal for help in an emergency, the
emergency aid exception best fits the attitude of police
responding to a 911 call.” 617 F.3d at 870; see also
Gradisher, 794 F.3d at 584 (citing “a 911 hangup call
that was made from the residence” as “indicat[ing] that
someone inside may need an officer’s aid”); Stricker,
710 F.3d at 360 (reasoning that “a 911 call made by a
resident affirmatively requesting emergency assistance
at her home and providing some description of the
nature of the emergency contributes to an objectively
reasonable basis for believing that a person within the
house was in need of immediate aid” (internal
quotation marks and citation omitted)). The court in
Johnson further emphasized that “[t]he officers’ actions
— announcing their presence and, after receiving no
answer, entering in order to perform a cursory search
for any endangered or injured persons — was an
objectively reasonable response.” Johnson, 617 F.3d at
870.
Returning to the present case, the Court recognizes
that the outcome here is not dictated by the Sixth
Circuit’s decisions in Johnson and similar cases, since

App. 45
no 911 call was placed from Mr. Baker’s residence.
Despite this factual distinction, however, this case law
tends to support Defendants’ appeal to exigent
circumstances, where the Defendant officers here relied
on the first-hand account of Kyle Baker’s friend, Collin
Mathieu, rather than a more ambiguous 911 hangup
call or a 911 call from an anonymous (and possibly
unreliable) source. Collin was sufficiently troubled by
his encounter with Kyle that he proceeded immediately
to the Trenton police station, explaining that he was
worried about Kyle and wanted the police to check on
his friend’s well-being. (See Mathieu Dep. at 44-45.)
Moreover, Collin’s report to the police did not rest
merely on abstract concerns about his friend’s unusual
behavior, but also on express statements that Kyle had
pulled a knife on Collin and had recently purchased a
gun. This report, with its disclosure that Kyle had
explicitly threatened physical harm to his friend and
its clear-cut indicia that Kyle posed a risk of still
greater harm to himself or others, surely warranted the
very response that Collin was seeking — namely, an
officer visit to Mr. Baker’s home to check on Kyle’s
welfare.
As they arrived at the Baker residence, the
Defendant officers confronted circumstances that
provided further justification for a warrantless entry
into the home. First, they learned along the way that
attempts to reach the residence by phone had not
succeeded because the line was busy. This confirmed
that someone likely was at the premises, yet did
nothing to dispel the concerns that triggered the
officers’ visit. Then, when the officers arrived and
knocked on the door, no one answered. Upon circling

App. 46
the home, the officers discovered that a rear door was
unlocked and entered the residence through a sunroom.
Only then did Kyle acknowledge the officers’ presence,
yelling obscenities at them from the basement and
demanding that they leave. See Schreiber v. Moe, 596
F.3d 323, 330 (6th Cir. 2010) (citing the plaintiff
homeowner’s “hostile and uncooperative” response to a
knock on the door by police investigating a 911 call as
supporting a finding of exigent circumstances);
Thacker, 328 F.3d at 255 (observing that the plaintiff’s
“demeanor and attitude” when answering the door
“indicated that [he] could have posed a threat to the
safety of the [defendant] officers,” and that his “lack of
cooperation” meant the officers could only dispel their
concerns “by entering the home and investigating
further”). Although the officers assured Kyle that he
was not in trouble and asked him to speak with them,
he refused to comply with this request and instead
continued to yell at the officers to leave, ultimately
appearing at the bottom of the basement stairs with a
lawnmower blade in his hand. Again, nothing in this
record could reasonably be understood as undermining
the conclusion that the Defendant officers’ warrantless
entry into the Baker residence was justified by a need
to render emergency aid or “protect an occupant from
imminent injury.” Stuart, 547 U.S. at 403, 126 S. Ct. at
1947.
Plaintiff seeks to avoid this result on two grounds,
but neither is persuasive. First, she contends that the
“community caretaker” exception to the warrant
requirement applies only to “police action ‘totally
divorced from the detection, investigation[,] or
acquisition of evidence relating to the violation of a

App. 47
criminal statute.’” (Dkt. 25, Plaintiff’s Response Br. at
11 (quoting United States v. Williams, 354 F.3d 497,
507 (6th Cir. 2003)).) In Plaintiff’s view, the dispatch
issued to the Defendant officers was suggestive of two
sorts of criminal activity that the officers might have
sought to investigate upon their arrival at Mr. Baker’s
home: (i) the possible theft of Collin Mathieu’s phone,
and (ii) the possibility that Kyle was threatening his
mother with a knife. Indeed, Plaintiff points to the
testimony of Officer Biniarz that he understood the
dispatch as indicating that Kyle was “holding his
mother with [a] knife . . . against her will.” (Biniarz
Dep. at 16.) It follows, according to Plaintiff, that the
Defendant officers cannot invoke the “community
caretaker” exception to justify their warrantless entry
into the Baker residence, where they purportedly were
motivated by suspicions of criminal activity.
This argument is defeated by the Supreme Court’s
ruling in Stuart. In that case, the respondents
contended that the officers who had carried out the
warrantless entry at issue “were more interested in
making arrests than quelling violence,” and they
“urg[ed] [the Court] to consider, in assessing the
reasonableness of the entry, whether the officers were
indeed motivated primarily by a desire to save lives
and property.” Stuart, 547 U.S. at 404, 126 S. Ct. at
1948 (internal quotation marks and citations omitted).
The Court declined this invitation, explaining that it
had “repeatedly rejected this approach” in prior
decisions holding that an “officer’s subjective
motivation is irrelevant” to a Fourth Amendment
inquiry. Stuart, 547 U.S. at 404, 126 S. Ct. at 1948.
Instead, the Court read its precedents as confirming

App. 48
that “[a]n action is ‘reasonable’ under the Fourth
Amendment, regardless of the individual officer’s state
of mind, as long as the circumstances, viewed
objectively, justify the action.” 547 U.S. at 404, 126 S.
Ct. at 1948 (internal quotation marks, alteration, and
citation omitted) (emphasis in original); see also
Stricker, 710 F.3d at 360 n.2 (rejecting the plaintiffs’
contention that “there were no exigent circumstances
because the officers demonstrated an ulterior motive”
for their warrantless entry “through their failed
attempt to obtain a warrant” to arrest one of the
occupants, and explaining that this argument “leads to
a subjective analysis” that “the Supreme Court has
repeatedly, and recently, disavowed”). Accordingly, it
does not matter in this case whether the Defendant
officers were given information suggestive of criminal
activity at Mr. Baker’s home, or whether one or more of
the officers might have subjectively intended to
investigate these suspicions or gather evidence of a
crime upon entering the home. The relevant inquiry is
whether the facts known to the officers gave rise to an
objectively reasonable belief that a warrantless entry
was necessary “to render emergency assistance to an
injured occupant or to protect an occupant from
imminent injury.” Stuart, 547 U.S. at 403, 126 S. Ct. at
1947. As explained, the Court finds that this standard
is met here.
Next, Plaintiff challenges Defendants’ claim of
exigent circumstances as based upon an incorrect
understanding of the situation at Mr. Baker’s home.
Most notably, the dispatcher’s statement led the
Defendant officers to believe that Kyle’s mother,
Heather Baker, was present at the home and that Kyle

App. 49
was threatening her, perhaps with a knife. (See
Driscoll Dep. at 27, 53; Biniarz Dep. at 16-17, 19; Lyons
Dep. at 19-20; Arnoczki Dep. at 17, 23.) Yet, it turned
out that Ms. Baker was not at the premises, and that
the officers’ belief to the contrary evidently rested upon
the dispatcher’s ambiguous and arguably misleading
characterization of Collin Mathieu’s statements to her
at the Trenton police station. Specifically, although
Collin apparently told the dispatcher that Kyle had
pulled a knife on him and had engaged in some sort of
dispute with his mother, (see Mathieu Dep. at 45), the
dispatcher’s statement advised that Kyle was
“threatening toward his mother” and had pulled out a
knife, (Defendants’ Motion, Ex. G, Dispatch Tr. at 2),
thereby suggesting that Ms. Baker was actually
present with Kyle at the time. Thus, at least some of
the facts conveyed to the Defendant officers as they
responded to the Baker home were not accurate, or at
least led the officers to draw incorrect inferences. It
follows, in Plaintiff’s view, that contrary to the officers’
understanding, there was no objectively reasonable
basis for believing that Ms. Baker faced any risk of
harm that could justify a warrantless entry.
This challenge fails on two grounds. First, the Sixth
Circuit and other courts have held that a warrantless
entry based on exigent circumstances “may not be held
unconstitutional simply because the reasonable
concerns of the officers were not substantiated afterthe-fact.” United States v. Huffman, 461 F.3d 777, 785
(6th Cir. 2006); see also Hunsberger v. Wood, 570 F.3d
546, 556 (4th Cir. 2009) (emphasizing that “[w]hen
policemen . . . are confronted with evidence which
would lead a prudent and reasonable official to see a

App. 50
need to act to protect life or property, they are
authorized to act on that information, even if
ultimately found erroneous” (internal quotation marks
and citation omitted)); United States v. Holloway, 290
F.3d 1331, 1340 (11th Cir. 2002) (“The fact that . . . the
information [relayed to the police] ultimately proves to
be false or inaccurate[] does not render the police action
any less lawful.”). Applying this principle here,
although the Defendant officers incorrectly believed
that Ms. Baker was in harm’s way at the home of her
ex-husband, they had a reasonable basis for this belief
in light of what the dispatcher told them.
Moreover, even if the Defendant police officers had
not operated under the mistaken belief that Ms. Baker
was at the residence and faced a risk of harm, the
remaining information they were given was accurate
and would have sufficed, standing alone, to justify a
warrantless entry. In particular, the officers reasonably
could have concluded that Kyle posed a danger to
himself, as well as anyone else at the premises with
him, where the information disclosed by Collin Mathieu
indicated that Kyle (i) had behaved erratically by
taking his friend’s cell phone and pulling a knife when
his friend sought to retrieve it, (ii) had been involved in
some sort of dispute with his mother, albeit over the
phone, and (iii) had recently purchased a shotgun. In
addition, by the time the officers arrived at Mr. Baker’s
house, they had learned additional information
consistent with their concerns for Kyle’s well-being,
including (i) that attempts to reach someone at the
residence had failed because the phone line was busy,
and (ii) that their knocks on the front door went
unanswered, despite indications that Kyle was still in

App. 51
the home. Consequently, even absent the officers’
mistaken belief that Kyle’s erratic behavior might pose
an immediate threat to his mother’s health and wellbeing, the other facts known to the officers were
sufficient to justify their warrantless entry into the
Baker residence.
But even if the Court were to conclude otherwise,
and instead find that the Defendant officers’
warrantless entry was not justified by exigent
circumstances, the officers nonetheless contend that
they would be shielded from liability under the doctrine
of qualified immunity. As explained by the Sixth
Circuit, “[q]ualified immunity ordinarily applies unless
it is obvious that no reasonably competent official
would have concluded that the actions taken were
lawful.” Chappell v. City of Cleveland, 585 F.3d 901,
907 (6th Cir. 2009). Plaintiff “bears the burden of
showing that [the Defendant] officers are not entitled
to qualified immunity.” Chappell, 585 F.3d at 905.
This, in turn, entails a two-pronged inquiry: Plaintiff
must show “both that, viewing the evidence in the light
most favorable to [Plaintiff], a constitutional right was
violated[,] and that the right was clearly established at
the time of the violation.” 585 F.3d at 907. To
demonstrate that a right is “clearly established,”
Plaintiff must show that the contours of this right “are
sufficiently clear that every reasonable official would
have understood that what he is doing violates that
right.” Ashcroft v. al-Kidd, 563 U.S. 731, 741, 131 S. Ct.
2074, 2083 (2011) (internal quotation marks,
alteration, and citation omitted). Plaintiff need not
identify “a case directly on point, but existing precedent
must have placed the statutory or constitutional

App. 52
question beyond debate.” al-Kidd, 563 U.S. at 741, 131
S. Ct. at 2083.
Plaintiff’s effort to make this showing is cursory at
best. In particular, she offers only the wholly
conclusory statement that “in several comparable
cases, courts in this circuit have recognized that the
constitutional right to be free of a warrantless
intrusion under circumstances like this was ‘clearly
established,’ rendering the qualified immunity defense
inapplicable,” and she supports this assertion with
citations to two Sixth Circuit decisions (one
unpublished) and two rulings from district courts in
this circuit. (Plaintiff’s Response Br. at 13.) Yet,
Plaintiff provides no analysis whatsoever of the facts
and holdings of these purportedly “comparable” cases,
but instead leaves the Court to its own devices in
conducting this inquiry. Upon performing this task, the
Court finds that the cited decisions do not assist
Plaintiff in defeating the Defendant officers’ appeal to
qualified immunity.
In one of these cases, the Sixth Circuit explained
that there were issues of fact as to the credibility of the
defendant officers and a complaining witness, such that
the existence of exigent circumstances could not be
determined as a matter of law. See Goodwin v. City of
Painesville, 781 F.3d 314, 332 (6th Cir. 2015).
Similarly, in the second Sixth Circuit decision cited by
Plaintiff, the court found that “most of the reasons”
given by the defendant officers to justify their
warrantless entry were “genuinely disputed,” and that
the remaining justifications for this entry — property
damage and “unsubstantiated complaints of drug

App. 53
activity” in the “general area of the apartment
complex” at which the plaintiff resided — did not
provide a basis for believing that anyone in the
plaintiff’s apartment was in need of immediate medical
attention. Nelms v. Wellington Way Apartments, LLC,
No. 11-3404, 513 F. App’x 541, 546-47 (6th Cir. Feb. 4,
2013). Here, in contrast, there is no such material
dispute as to the facts known to the officers when they
elected to enter Mr. Baker’s home without a warrant.
Rather, the issue here is a purely legal one — namely,
whether these facts give rise to exigent circumstances
that would justify a warrantless entry. The Sixth
Circuit cases cited by Plaintiff do not place the
resolution of this issue “beyond debate,” al-Kidd, 563
U.S. at 741, 131 S. Ct. at 2083, such that it would have
been obvious to a reasonable police officer in
Defendants’ position that a warrantless entry would be
unlawful.
As for the two district court cases cited by Plaintiff,
it bears noting at the outset that such cases do not
qualify as “controlling authority in [this] jurisdiction,”
nor are they illustrative of a “consensus of cases of
persuasive authority such that a reasonable officer
could not have believed that his actions were lawful.”
Wilson v. Layne, 526 U.S. 603, 617, 119 S. Ct. 1692,
1700 (1999). In any event, these decisions are readily
distinguishable. In Modrell v. Hayden, 636 F. Supp.2d
545, 549-50 (W.D. Ky. 2009), the plaintiff and his son
lived in separate upstairs and downstairs residences
within the same building, and the police went to the
premises to investigate reports that the plaintiff’s son
had engaged in illegal drug activity. After the police
had entered and searched the son’s downstairs

App. 54
residence with his consent and had placed him under
arrest, they then entered the father’s upstairs
residence, without a warrant and over his objections,
for the stated purpose of securing everyone in the
building for the safety of the officers. See Modrell, 636
F. Supp.2d at 550, 553. The court held that this
warrantless entry was not justified by exigent
circumstances, where the defendant police officers had
“no reason to believe that anyone in [the plaintiff’s]
residence was in danger,” and where everyone in the
downstairs residence who might have posed a threat to
the officers’ well-being had already been detained. 636
F. Supp.2d at 553. The present case, unlike Modrell,
does not involve officers citing a risk of harm at one
residence to justify a warrantless entry into an
adjacent residence.
Finally, Plaintiff points to Grove v. Wallace, No. 15166, 2016 WL 7334841, at *1 (W.D. Mich. Dec. 19,
2016), in which the defendant police officer was
dispatched to the plaintiff’s residence “for a so-called
‘civil standby’” requested by the ex-wife of the
plaintiff’s fiancé as she went to pick up her three
children from the residence. The defendant officer
knocked on the door of the residence several times but
received no response, and he ultimately elected to enter
the residence without a warrant when he heard the
sound of a child or baby crying. Id. As observed by the
court, “[the facts boil down to this: someone was home
but not answering the door and a baby was crying.” Id.
at *3. Under these circumstances, the court found that
there was no objectively reasonable basis for believing
that someone within the home was in need of
immediate aid or protection, and that “[a] conclusion

App. 55
that exigent circumstances existed on these facts
requires a fair degree of speculation.” Id. In this case,
by comparison, the Defendant police officers acted on
the basis of an eyewitness account of Kyle Baker’s
erratic behavior and his brandishing of a knife at a
friend who had visited him to check on his well-being.
This is far more than a mere failure to answer the door
under circumstances where there is reason to believe
that someone is present at the home.
As the Supreme Court has observed, “[qualified
immunity gives government officials breathing room to
make reasonable but mistaken judgments about open
legal questions,” and this doctrine “protects all but the
plainly incompetent or those who knowingly violate the
law.” al-Kidd, 563 U.S. at 743, 131 S. Ct. at 2085
(internal quotation marks and citation omitted). In
addition, “[qualified immunity applies irrespective of
whether the official’s error was a mistake of law or a
mistake of fact.” Chappell, 585 F.3d at 907. More
generally, the Supreme Court has emphasized that “the
ultimate touchstone of the Fourth Amendment is
‘reasonableness,’” Stuart, 547 U.S. at 403, 126 S. Ct. at
1947, and that “[the calculus of reasonableness must
embody allowance for the fact that police officers are
often forced to make split-second judgments . . . in
circumstances that are tense, uncertain, and rapidly
evolving,” Graham v. Connor, 490 U.S. 386, 396-97, 109
S. Ct. 1865, 1872 (1989). Applying these principles to
this case, even assuming the Defendant officers
misapprehended the danger of the situation in their
belief that Kyle was threatening his mother with a
knife, any such mistaken assessment made with
limited information and in uncertain circumstances

App. 56
was not so plainly unlawful and violative of Kyle’s
Fourth Amendment rights as to defeat the officers’
appeal to qualified immunity.
B. Officer Driscoll’s Use of Deadly Force
Was Justified in Light of Kyle Baker’s
Continued Advancement Toward the
Officer Despite Repeated Warnings and
While Brandishing a Dangerous
Weapon.
In Count IV of her complaint, Plaintiff has asserted
a claim under 42 U.S.C. § 1983 against Officer Mark
Driscoll, alleging that this officer violated Kyle Baker’s
Fourth Amendment protection against unreasonable
seizures by using deadly force against Kyle under
circumstances that did not permit this degree of force.
In their present motion, Defendants seek an award of
summary judgment in Officer Driscoll’s favor on this
claim, arguing that this officer’s use of lethal force
against Kyle was reasonable as a matter of law under
the circumstances he faced at the time. In particular,
Defendants point to the undisputed evidence that Kyle
continued to advance toward Officer Driscoll with a
dangerous weapon in his hand — namely, a
lawnmower blade — and that he did so despite
repeated warnings and despite the Defendant officers’
use of a lesser degree of force in an effort to neutralize
the threat posed by this young man’s erratic behavior.
As discussed below, the Court agrees that Officer
Driscoll is entitled to summary judgment in his favor
on this claim.

App. 57
The Supreme Court has held that claims of
excessive force “should be analyzed under the Fourth
Amendment and its ‘reasonableness’ standard,” and
that determining whether a particular use of force “is
‘reasonable’ under the Fourth Amendment requires a
careful balancing of the nature and quality of the
intrusion on the individual’s Fourth Amendment
interests against the countervailing governmental
interests at stake.” Graham v. Connor, 490 U.S. 386,
395-96, 109 S. Ct. 1865, 1871 (1989) (internal quotation
marks and citations omitted). The Court has further
explained that the “reasonableness” inquiry in an
excessive force case, “[a]s in other Fourth Amendment
contexts,” is governed by an objective standard, under
which “the question is whether the officers’ actions are
‘objectively reasonable’ in light of the facts and
circumstances confronting them, without regard to
their underlying intent or motivation.” Graham, 490
U.S. at 397, 109 S. Ct. at 1872. The Court has cited a
non-exclusive list of factors to be considered in this
inquiry, including “whether the suspect poses an
immediate threat to the safety of the officers or others.”
490 U.S. at 396, 109 S. Ct. at 1872. Finally, the Court
has cautioned that “[the ‘reasonableness’ of a particular
use of force must be judged from the perspective of a
reasonable officer on the scene, rather than with the
20/20 vision of hindsight.” 490 U.S. at 396, 109 S. Ct. at
1872.
In Tennessee v. Garner, 471 U.S. 1, 105 S. Ct. 1694
(1985), the Supreme Court applied these standards to
the specific context of deadly force. As a threshold
matter, the Court observed that “[w]henever an officer
restrains the freedom of a person to walk away, he has

App. 58
seized that person.” Garner, 471 U.S. at 7, 105 S. Ct. at
1699. It followed, therefore, that “apprehension by the
use of deadly force is a seizure subject to the
reasonableness requirement of the Fourth
Amendment.” Garner, 471 U.S. at 7, 105 S. Ct. at 1699.
The Court then reasoned that “[w]here the suspect
poses no immediate threat to the officer and no threat
to others, the harm resulting from failing to apprehend
him does not justify the use of deadly force to do so.”
471 U.S. at 11, 105 S. Ct. at 1701. On the other hand,
“[w]here the officer has probable cause to believe that
the suspect poses a threat of serious physical harm,
either to the officer or to others,” the Court found that
“it is not constitutionally unreasonable to prevent
escape by using deadly force.” 471 U.S. at 11, 105 S. Ct.
at 1701. “Thus, if the suspect threatens the officer with
a weapon or there is probable cause to believe that he
has committed a crime involving the infliction or
threatened infliction of serious physical harm, deadly
force may be used if necessary to prevent escape, and
if, where feasible, some warning has been given.” 471
U.S. at 11-12, 105 S. Ct. at 1701.
Returning to the present case, Defendants submit
that the facts here are similar to those presented in
Chappell, and that the Court therefore should reach
the same result. In Chappell, 585 F.3d at 904, the two
defendant police detectives were investigating an
armed robbery, and the circumstances of this offense
led the detectives to suspect a 15-year-old boy named
Brandon McCloud, “who lived in the vicinity of the
robbery and had admitted committing 10-12 similar
armed robberies.” On all but one of these past
occasions, McCloud has used a knife in the course of his

App. 59
criminal activity. Against this backdrop, the detectives
secured a warrant to search the home where McCloud
lived with his grandmother, plaintiff Dorothy Chappell,
and his uncle. The detectives arrived at the home at
around 5:00 a.m. and “proceeded to conduct a
protective sweep of the residence.” 585 F.3d at 904.
The house was still dark at the time, and the two
detectives “proceeded from one room to another with
flashlights, firearms drawn.” 585 F.3d at 905. The
detectives claimed that they announced their presence
several times as police officers, but others who were
present at the house “did not recall hearing this.” 585
F.3d at 905. The court described the detectives’
encounter with McCloud as follows:
As the detectives approached what turned out to
be McCloud’s bedroom on the second floor, they
found the door closed. The barged into the small
bedroom, each taking a position inside the room
on either side of the “fatal funnel” formed by the
opening into the room. Across the dark room,
they spotted McCloud hiding in the closet. Their
flashlights and firearms trained on him, they
ordered him to come out of the closet and show
his hands. After first hesitating, McCloud
turned and came out of the closet holding a knife
in his right hand with the blade pointing
upward. Ignoring their commands to drop the
knife, McCloud continued to move quickly
toward the detectives. Believing they were
threatened with imminent serious bodily harm,
both detectives simultaneously opened fire, each
striking McCloud with several shots, killing him

App. 60
instantly. The entire encounter transpired in a
matter of seconds.
585 F.3d at 905.
The district court held that the two detectives were
not entitled to qualified immunity due to outstanding
issues of fact, but the Court of Appeals reversed. At the
outset of its analysis, the Sixth Circuit agreed with the
court below that “if there is some evidence — more
than a mere scintilla of evidence — that McCloud,
through his conduct, judged from the perspective of
reasonable officers on the scene, did not give the
officers probable cause to believe that he posed a
serious threat of harm, a genuine fact dispute is
created.” 585 F.3d at 909 (emphasis in original). The
court then determined, however, that the record did not
give rise to any such genuine dispute of material fact
that would preclude an award of summary judgment in
the detectives’ favor. Rather, “[c]onsidering what the
record shows [the detectives] knew at the moment of
McCloud’s attack,” the court found that the detectives’
“use of deadly force to defend themselves in close
quarters against a knife-wielding assailant who had
closed to within five to seven feet and was still
advancing toward them cannot be deemed objectively
unreasonable.” 585 F.3d at 916; see also Rush v. City of
Lansing, No. 15-1225, 644 F. App’x 415, 421 (6th Cir.
Feb. 29, 2016) (finding that “it was not unreasonable”
for the defendant police officer “to use deadly force by
shooting at” an individual who, immediately before the
shot was fired, had “dr[awn] a knife and slashed at [the
officer] from an arm’s length away”); Rhodes v.
McDannel, 945 F.2d 117, 120 (6th Cir. 1991) (finding

App. 61
that the defendant police officers were “justified in
using deadly force” where the plaintiff’s decedent had
“advanced upon [them] . . . with a raised machete,
despite several warnings to halt”).
In response, Plaintiff contends that Chappell is
distinguishable on various grounds, and she points to
rulings by the Sixth Circuit and by district courts in
this circuit and elsewhere that purportedly illustrate
these distinctions. In Bletz v. Gribble, 641 F.3d 743,
752 (6th Cir. 2011), for instance, a witness testified
that the shooting victim, Fred Bletz, “was lowering his
gun in response to [the defendant police officer’s]
command to do so.” Under these circumstances, the
court held that “[i]f [the officer] shot Fred Bletz while
the latter was complying with the officer’s command,
then [the officer] violated Fred Bletz’s clearly
established Fourth Amendment right to be free from
deadly force.” Bletz, 641 F.3d at 752. The court then
explained why Chappell was distinguishable:
There are . . . several key differences between
the facts in Chappell and the instant case. In
Chappell, the officers had certain knowledge
that the suspect had engaged in prior armed
robberies using a knife. Here, there was no
imputation of past or potential future violence
on the part of Fred. In Chappell, the officers
were in a small room with no opportunity to
retreat. Here, the officers were in a breezeway,
only feet away from the outside and, arguably,
safety. In Chappell, the subject had advanced to
within five to seven feet and was apparently
lunging forward with a knife. Here, Fred was

App. 62
fifteen feet away and was allegedly lowering his
weapon.
Most importantly, in Chappell, “[n]one of
[the] facts [were] refuted by physical or
circumstantial evidence and none [were]
disputed by contrary testimony. In fact, there
[were] no other witnesses who could testify to
the circumstances facing the detectives in the
bedroom immediately before they fired their
weapons.” [Chappell, 585 F.3d] at 910. In
contrast, here, plaintiff’s allegations rest not
only on . . . eyewitness testimony . . . , but also
on the differences of the testimony and actions of
the two defendant[] [officers]. Thus, . . . the
district court’s ruling was driven by two
obviously conflicting versions of the facts. Given
that these two versions presented a classic
factual dispute, the district court properly held
the reasonableness of the shooting was a jury
question.
Bletz, 641 F.3d at 753 (internal quotation marks and
citations omitted).
Although Plaintiff maintains that “[t]his case is
much more factually akin to Bletz than to Chappell,”
(Plaintiff’s Response Br. at 18), she does not explain
why this is so, and the opposite appears to be true.
Most notably, just as in Chappell but unlike in Bletz,
the testimony of the Defendant officers stands
unrefuted by the statements of any other eyewitnesses
or any other evidence in the record. To be sure,
Plaintiff asserts that the testimony of Officer Driscoll
is contradicted in certain respects by the findings in the

App. 63
autopsy report — specifically, regarding the trajectory
of the bullet fired by the officer and the absence of
gunpowder residue that purportedly would have been
found if Kyle had been shot at close range. (See
Plaintiff’s Response Br. at 17.) Yet, as Defendants aptly
observe in their reply brief, these claimed
inconsistencies are not supported by the report or
testimony of an expert in ballistics or crime scene
reconstruction, but instead reflect only an attempt by
Plaintiff and her counsel to “craft[] [their] own
narrative” of the shooting by “pulling bits and pieces
out of the autopsy report.” (Dkt. 26, Defendants’ Reply
Br. at 4.) Such speculation by Plaintiff and her counsel,
unbacked by any evidentiary support or expert opinion,
cannot give rise to an issue of fact as to the accuracy of
Officer Driscoll’s account of his shooting of Kyle Baker.
Plaintiff also seeks to undermine Officer Driscoll’s
account by noting that he waited over a month before
giving a statement about the shooting. However, she
cites no authority for the proposition that this
statement should be deemed untimely under some
relevant standard, or that Officer Driscoll’s delay might
somehow serve to diminish the weight accorded to his
statement.5 Plaintiff further suggests that the accounts
of the Defendant officers regarding the circumstances
surrounding the shooting are open to question because
5

Notably, Plaintiff had the opportunity to depose Officer Driscoll
on this and any other desired subject, but she does not point to any
portion of his deposition testimony that might support her
challenge to the veracity of Officer Driscoll’s post-shooting
statement. Nor has Plaintiff identified any arguable
inconsistencies between Officer Driscoll’s statement and his
deposition testimony.

App. 64
the three other officers on the scene acknowledged that
they did not see Officer Driscoll shoot Kyle. Yet, as
Defendants correctly observe in response, each of these
three officers “describe[d] their locations at the time of
the shooting,” and their testimony about their
restricted lines of sight at the time of the shooting is
fully consistent with their descriptions of the “narrow
residential stairwell” in which the shooting occurred.
(Defendants’ Reply Br. at 3 n.3.) Accordingly, unlike
the plaintiffs in Bletz, Plaintiff here has failed to
identify anything in the record — whether testimony,
physical evidence, or circumstantial evidence — that
could give rise to a material factual dispute concerning
the circumstances surrounding Kyle’s shooting.
Indeed, the uncontroverted testimony of the
Defendant officers reveals that the circumstances here
are fairly similar to those in Chappell but distinct from
those in Bletz. In this case, as in Chappell but unlike in
Bletz, the Defendant officers were in a confined space
— i.e., a residential stairway leading down to a
basement — as they interacted with Kyle, and their
only avenue of retreat was back up those stairs and
into the kitchen. The officers, in fact, availed
themselves of this opportunity to retreat from Kyle as
he approached them with a lawnmower blade in his
hand, but Officer Driscoll lost his footing during this
effort and had to slide up the remaining stairs on his
backside. Thus, while the officers in Bletz were “in a
breezeway, only feet away from the outside and,
arguably, safety,” 641 F.3d at 753, Officer Driscoll was
not in a comparable position to retreat from Kyle as he
approached with a lawnmower blade in his hand.
Moreover, the shooting victim in Bletz “was fifteen feet

App. 65
away [from the officers] and was allegedly lowering his
weapon,” 641 F.3d at 753, but Kyle was far closer to
Officer Driscoll, was continuing to advance up the
stairs toward the officers, and was swinging the
lawnmower blade erratically back and forth at or above
shoulder level. Indeed, the record makes clear that
Kyle was within arm’s reach of Officer Driscoll at some
point as the officer slid backward up the stairs and
Kyle continued to advance toward him, given that Kyle
sliced the officer’s hand with the lawnmower blade
during this encounter.
To be sure, the shooting victim in Chappell had a
known history of carrying out armed robberies using a
knife, while Kyle had no such history of violent acts —
with the exception, of course, that he had pulled a knife
on his friend Collin Mathieu just a short time earlier.
Yet, to the extent that this factual distinction weakens
the justification for the use of deadly force here, other
factual distinctions strengthen it. Specifically, the
Defendant officers in this case repeatedly warned Kyle
to drop the lawnmower blade, and then deployed their
tasers three times in an attempt to subdue Kyle and
secure his cooperation, but these efforts proved
unavailing. The officers’ warnings and use of less
severe measures are important considerations in
assessing the reasonableness of Officer Driscoll’s
subsequent resort to deadly force, and these factors,
when evaluated alongside the other circumstances
common to Chappell and this case, tip the balance
decisively toward the conclusion that this use of deadly
force was objectively reasonable.

App. 66
A second case relied on by Plaintiff in her effort to
distinguish Chappell is equally unavailing. In Scozzari
v. City of Clare, 723 F. Supp.2d 945 (E.D. Mich. 2010),
aff’d sub nom. Scozzari v. Miedzianowski, 454 F. App’x
455 (6th Cir. Jan. 4, 2012), the two defendant officers
asserted that the facts of that case were “like those of
Chappell,” where both cases purportedly “involve[d] the
fatal firing of weapons at a suspect who threatened the
officers with a knife, refused the officers’ commands to
drop the weapon and continued to approach the
officers, coming within seven feet of the officers and
causing them to believe that they were in immediate
harm.” 723 F. Supp.2d at 964 (internal quotation
marks and citations omitted). The district court
disagreed, noting the testimony of multiple witnesses
(i) that the shooting victim “was as far as ten to twenty
feet from [one officer], and even further from the
[other],” (ii) that one of the officers, contrary to his
assertions, had fired at the victim from a standing
position and had not fallen while backing away from
the victim, (iii) that the officers had “open space
behind” them that would have enabled them to retreat,
and (iv) that the victim was moving slowly, which
further enhanced the officers’ opportunity to retreat.
723 F. Supp.2d at 964. In light of these “more than
minor” conflicts in the witness testimony, the district
court found that the defendants had failed to establish
their entitlement to qualified immunity. 723 F.
Supp.2d at 964. The Sixth Circuit then affirmed this
ruling, observing that “the differences between
Chappell and this case are significant,” and citing as
examples the evidence in that case (i) that “the
[o]fficers were standing 15 to 20 feet from [the victim]
when they shot him,” (ii) that raised questions as to

App. 67
“whether [the victim] was wielding a knife and hatchet
over his head,” as the officers claimed, and (iii) that the
victim was “moving slowly or not at all,” thus
suggesting that options were available to the officers
and “present[ing] a genuine question whether the
situation compelled a split-second decision to use lethal
force.” Scozzari, 454 F. App’x at 463.
Again, the factual distinctions between Scozzari and
this case are readily apparent. First, Scozzari (like
Bletz) featured conflicting eyewitness testimony on
such material factual issues as (i) the distance between
the officers and the victim at the time of the shooting,
(ii) the opportunity for the officers to retreat from the
danger posed by the victim, and (iii) whether the victim
was wielding a weapon at the time of the shooting. As
already discussed, the testimony and other evidence in
this case do not give rise to any such genuine issues of
material fact as to the circumstances surrounding the
shooting of Kyle Baker. Moreover, the record in
Scozzari, when viewed in a light most favorable to the
plaintiff, disclosed that the defendant officers were 15
to 20 feet away from the victim when they shot him,
that retreat was a viable option, that the victim was
moving only slowly, if at all, in the officers’ direction at
the time, and that he was not wielding a weapon when
he was shot. Here, in contrast, the unrefuted record
demonstrates (i) that Kyle and Officer Driscoll were in
close proximity — to the point, as already observed,
that Kyle was able to slice Officer Driscoll’s hand with
the lawnmower blade moments before he was shot;
(ii) that Officer Driscoll lost his footing while backing
up the stairs, thus foreclosing his opportunity to
retreat from Kyle as he advanced up the stairs toward

App. 68
the officer; and (iii) that Kyle was swinging the
lawnmower blade and had raised it to shoulder height
at the time he was shot. These circumstances pose
precisely the need for a “split-second decision to use
lethal force” that was found lacking in Scozzari.
Plaintiff cites one final decision, Maddox v. City of
Sandpoint, No. 16-00162, 2017 WL 4343031 (D. Idaho
Sept. 29, 2017), in her effort to distinguish Chappell,
but this case warrants little further discussion — not
least because this unpublished, out-of-circuit district
court ruling has no bearing on the qualified immunity
inquiry here. In Maddox, 2017 WL 4343031, at *1, the
victim, Jeanetta Riley, was shot outside a hospital after
the defendant officers responded to a report of a female
outside the hospital “with a knife, threatening to kill
people.” The officers directed Ms. Riley several times to
show her hands and drop the knife, but she refused and
responded with obscenities. The officers initially took
out their tasers, but when Ms. Riley continued to refuse
the officers’ commands to drop her knife and instead
began walking toward the officers, two of them shot
and killed her. Under these facts, the court held that
the defendant officers were not entitled to qualified
immunity, finding that “a jury could conclude that a
reasonable officer would not believe that the use of
deadly force was justified.” Maddox, 2017 WL 4343031,
at *12. In so ruling, the court distinguished the Sixth
Circuit’s decision in Chappell on the grounds (i) that by
the defendant officers’ own admission, Ms. Riley
approached them “at a slower pace,” (ii) that, according
to an eyewitness, Ms. Riley did not “make a
threatening move towards the officers” or “place[] the
knife in [a] threatening position,” but merely walked

App. 69
toward the officers, (iii) that the officers were not in a
confined space but instead “confronted [Ms. Riley] in an
open area, from an initial distance of approximately
twenty feet,” (iv) that the officers limited their own
opportunity to retreat by choosing to move toward Ms.
Riley at various points during their encounter, and
(v) that when Ms. Riley was shot, the nearest officer
was about 10 to 12 feet away. Id. at *6-*8 (internal
quotation marks and citations omitted).
Maddox is distinguishable from this case on many
of the same grounds already discussed. First, that case
featured the conflicting accounts of the defendant
police officers and other eyewitnesses, but this case
does not. Next, the defendant officers in Maddox had a
far greater opportunity to retreat or otherwise avoid
danger than did Officer Driscoll in this case. Likewise,
Kyle was in much closer proximity to Officer Driscoll
and, due to his aggressive behavior and the confined
space in which he carried out his threatening acts,
posed a much greater and more imminent threat of
serious injury to the officer than did Ms. Riley in
Maddox.
Accordingly, given the factual similarities between
this case and Chappell, the Court finds that the
outcome here should be the same. Just as the Sixth
Circuit held in that case that the defendant detectives’
use of deadly force was objectively reasonable under
the circumstances, Officer Driscoll’s use of lethal force
in this case was likewise objectively reasonable under
comparable circumstances. And even if this use of force
could be deemed mistaken, or at least open to question,
Officer Driscoll would be entitled to qualified immunity

App. 70
from liability arising from his purportedly questionable
judgment, where Plaintiff has not identified any basis
for concluding that Officer Driscoll acted contrary to
clearly established law. Although the shooting death of
Kyle Baker was undoubtedly tragic, the Court holds
that Officer Driscoll is entitled to summary judgment
in his favor on Plaintiff’s § 1983 claim of excessive force
arising from this shooting.
C. Plaintiff Has Failed to Identify a Basis
in the Record for Holding the Defendant
City of Trenton Liable for a Violation of
Kyle Baker’s Constitutional Rights.
In the first count of her complaint, Plaintiff has
asserted a § 1983 claim against the Defendant City of
Trenton, alleging that the City is subject to liability for
the alleged violations of Kyle Baker’s constitutional
rights by virtue of its failure to adequately train its
officers, its adoption of policies and customs that led to
these alleged constitutional violations, and its
ratification of the conduct of its officers as they engaged
in these alleged violations. Defendants now seek an
award of summary judgment in the City’s favor on this
claim of municipal liability, arguing (i) that Plaintiff
has failed to establish an underlying violation of Kyle’s
constitutional rights that could give rise to the City’s
liability, and (ii) that Plaintiff has failed to produce
evidence that could forge the requisite causal link
between any such violation and a municipal policy or
custom.
Under well-settled principles, the Defendant City of
Trenton “cannot be held liable under § 1983 for an
injury inflicted solely by its employees or agents.”

App. 71
Gregory v. Shelby County, 220 F.3d 433, 441 (6th Cir.
2000) (citing Monell v. Department of Social Servs., 436
U.S. 658, 694, 98 S. Ct. 2018, 2037 (1978)). Rather,
“[f]or liability to attach, there must be execution of a
government’s policy or custom which results in a
constitutional tort.” Gregory, 220 F.3d at 441.
Moreover, Plaintiff must establish that “through its
deliberate conduct, the municipality was the ‘moving
force’ behind” the alleged violation of Kyle’s
constitutional rights — that is, it “must show that the
municipal action was taken with the requisite degree
of culpability and must demonstrate a direct causal
link between the municipal action and the deprivation
of federal rights.” Gregory, 220 F.3d at 442 (quoting
Board of County Comm’rs of Bryan County v. Brown,
520 U.S. 397, 405, 117 S. Ct. 1382, 1389 (1997)).
In seeking an award of summary judgment in its
favor, the Defendant City first points out, and Plaintiff
does not dispute, that if Plaintiff fails to establish a
violation of Kyle’s constitutional rights by the
Defendant police officers, then the City likewise is free
from liability. See Watkins v. City of Battle Creek, 273
F.3d 682, 687 (6th Cir. 2001) (explaining that “[i]f no
constitutional violation by the individual defendants is
established, the municipal defendants cannot be held
liable under § 1983”). For reasons already discussed,
the Court doubts that Plaintiff can succeed on her
claims (i) that the Defendant officers acted unlawfully
by entering Mr. Baker’s home without a warrant, or
(ii) that Officer Driscoll violated Kyle’s Fourth
Amendment protection against unreasonable seizures
by using deadly force in circumstances that did not
justify this degree of force. To the extent that Plaintiff

App. 72
cannot establish at least one of these alleged
constitutional violations, it follows that her § 1983
claim against the City is subject to dismissal as well.
Yet, because the Court has concluded in the alternative
that Plaintiff’s claims against the individual Defendant
officers are defeated by qualified immunity, the Court
proceeds to analyze Plaintiff’s claim against the City.
In an effort to identify support for this claim,
Plaintiff first contends that the Defendant City’s
liability for these violations may be established solely
by resort to the uniform testimony in the record that
“the conduct of the [Defendant officers] was consistent
with the City’s policies.” (Plaintiff’s Response Br. at
22.) Plaintiff reasons that “if storming the Baker house
was unconstitutional, and if killing [Kyle] was
unconstitutional, then the policies with which those
actions are consistent must likewise be
unconstitutional.” (Id.) Yet, Plaintiff cites nothing
whatsoever in support of this ipse dixit claim of
municipal liability. In particular, she does not even
attempt to forge a link between an unlawful act by a
Defendant police officer and language in a City of
Trenton policy that could be viewed as the “moving
force” behind this illegal conduct. The Court cannot
simply assume, based on Plaintiff’s bare and
unsupported speculation, that something somewhere
within the policies and procedures governing Trenton
police officers served as the authorization and basis for
a violation of Kyle’s constitutional rights. To do so, as
Defendants observe, would impose municipal liability
under a theory of respondeat superior, which Monell
and its progeny squarely foreclose.

App. 73
Next, Plaintiff asserts that the Defendant City is
subject to liability by virtue of its failure to discipline
anyone in connection with the Defendant officers’
warrantless entry into Mr. Baker’s home or Officer
Driscoll’s fatal shooting of Kyle. In response,
Defendants first observe that Plaintiff’s failure-todiscipline theory of municipal liability assumes that
the Defendant officers or some other Trenton employee
engaged in unlawful conduct that would warrant
discipline, and they contend, as already discussed, that
Plaintiff has failed to establish any of the constitutional
violations alleged in her complaint. In any event, to
sustain this theory, Plaintiff cannot rely solely on the
Defendant City’s failure to discipline any of its
employees in this particular instance, but instead must
produce evidence of a “history of widespread abuse that
has been ignored by the City.” Berry v. City of Detroit,
25 F.3d 1342, 1354 (6th Cir. 1994); see also Hill v. City
of Detroit, No. 11-10413, 2012 WL 2526931, at *3 (E.D.
Mich. June 29, 2012). The record contains no such
evidence of a broader pattern of similar misconduct
that the City has disregarded.
Finally, Plaintiff maintains that the City effectively
ratified the alleged misconduct of the Defendant
officers by failing to conduct a “meaningful
investigation” of the incident giving rise to this suit.
(Plaintiff’s Response Br. at 23.) Yet, within a short time
after Kyle’s shooting, Sergeant Joseph White of the
Michigan State Police (“MSP”) arrived at the scene,
and he later produced a several-page report in which
he described the witnesses he had interviewed, the
evidence and statements he had reviewed, and the
other steps he took in the course of his investigation.

App. 74
(Defendants’ Motion, Ex. B, MSP Investigative Report.)
Although Plaintiff identifies various purported
deficiencies in this investigation — e.g., that Sergeant
White reviewed the incident reports prepared by
Defendants Lyons, Biniarz, and Arnoczki in lieu of
interviewing these officers, (see id. at 4), and that he
allegedly pre-judged the outcome of his investigation by
referring to Officer Driscoll’s shooting of Kyle as “selfdefense” when he interviewed Collin Mathieu a few
hours after the shooting, (see Plaintiff’s Response,
Ex. 2, Mathieu Interview Tr. at 12) — she makes no
effort to explain how these shortcomings rendered the
MSP investigation wholly inadequate. Nor does she cite
any authority for the proposition that this investigation
was so deficient that it evidences the City’s “deliberate
indifference” to the constitutional rights of its citizens.
See Thomas v. City of Chattanooga, 398 F.3d 426, 429
(6th Cir. 2005).
In any event, Plaintiff once again seeks to “infer a
municipal-wide policy based solely on one instance” of
an allegedly inadequate investigation. As the Sixth
Circuit has recognized, “[t]his argument, taken to its
logical end, would result in the collapsing of the
municipal liability standard into a simple respondeat
superior standard,” a “path to municipal liability [that]
has been forbidden by the Supreme Court.” Thomas,
398 F.3d at 432-33. Accordingly, Plaintiff has failed to
produce evidence that could sustain a viable § 1983
claim against the Defendant City.

App. 75
V.

CONCLUSION

For these reasons, the Court GRANTS Defendants’
January 29, 2018 motion for summary judgment
(Dkt. 21).
IT IS SO ORDERED.
Date: September 24, 2018
s/Marianne O. Battani
MARIANNE O. BATTANI
United States District Judge
CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing Order was
served upon counsel of record via the Court’s ECF
System to their respective email addresses or First
Class U.S. mail to the non-ECF participants on
September 24, 2018.
s/ Kay Doaks
Case Manager

App. 76
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 16-cv-12280
Honorable Marianne O. Battani
[Filed September 24, 2018]
_____________________________________________
HEATHER BAKER, Personal Representative )
of the Estate of KYLE BAKER, Deceased,
)
Plaintiff,
)
)
v.
)
)
CITY OF TRENTON, MARK DRISCOLL,
)
STEVE LYONS, AARON BINIARZ,
)
and STEVE ARNOCZKI,
)
Defendants.
)
____________________________________________ )
JUDGMENT
For the reasons stated in the Opinion and Order
Granting Defendants’ Motion for Summary Judgment,
IT IS HEREBY ORDERED that Judgment is
entered in favor of Defendants and against Plaintiff.
Date: September 24, 2018
s/Marianne O. Battani
MARIANNE O. BATTANI
United States District Judge

App. 77
CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing Order was
served upon counsel of record via the Court’s ECF
System to their respective email addresses or First
Class U.S. mail to the non-ECF participants on
September 24, 2018.
s/ Kay Doaks
Case Manager

